<html>
<title> - LOCAL IMPACT OF THE DEEPWATER HORIZON OIL SPILL</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





            LOCAL IMPACT OF THE DEEPWATER HORIZON OIL SPILL

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 7, 2010

                               __________

                           Serial No. 111-129




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

76-584                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001















                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
CHARLES A. GONZALEZ, Texas           JOHN SULLIVAN, Oklahoma
JAY INSLEE, Washington               TIM MURPHY, Pennsylvania
TAMMY BALDWIN, Wisconsin             MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas                  MARSHA BLACKBURN, Tennessee
ANTHONY D. WEINER, New York          PHIL GINGREY, Georgia
JIM MATHESON, Utah                   STEVE SCALISE, Louisiana
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont
              Subcommittee on Oversight and Investigations

                    BART STUPAK, Michigan, Chairman
BRUCE L. BRALEY, Iowa                GREG WALDEN, Oregon
  Vice Chairman                        Ranking Member
EDWARD J. MARKEY, Massachusetts      ED WHITFIELD, Kentucky
DIANA DeGETTE, Colorado              MIKE FERGUSON, New Jersey
MIKE DOYLE, Pennsylvania             TIM MURPHY, Pennsylvania
JANICE D. SCHAKOWSKY, Illinois       MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas
DONNA M. CHRISTENSEN, Virgin Islands
PETER WELCH, Vermont
GENE GREEN, Texas
BETTY SUTTON, Ohio
JOHN D. DINGELL, Michigan (ex officio)














                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bart Stupak, a Representative in Congress from the State of 
  Michigan, opening statement....................................     1
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     3
    Prepared statement...........................................     6
Hon. Bruce L. Braley, a Representative in Congress from the State 
  of Iowa, prepared statement....................................    11
Hon. Donna M. Christensen, a Representative in Congress from the 
  Virgin Islands, opening statement..............................    12
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, prepared statement..............    13
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................    14
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................    15
Hon. Charlie Melancon, a Representative in Congress from the 
  State of Louisiana, opening statement..........................    16
Hon. Steve Scalise, a Representative in Congress from the State 
  of Louisiana, opening statement................................    17

                               Witnesses

Natalie Roshto, wife of Shane Roshto; and Courtney Kemp, wife of 
  Roy Wyatt Kemp.................................................    19
    Prepared statement...........................................    22
Kelby Linn, Owner, ACP Real Estate, Inc., Vice President, Dauphin 
  Island Chamber of Commerce.....................................    45
    Prepared statement...........................................    47
Clarence Duplessis, Oysterman....................................    49
    Prepared statement...........................................    51
Moby Solangi, Ph.D., President and Executive Director, Institute 
  of Mammal Services.............................................    54
    Prepared statement...........................................    56
Wilma Subra, President, Subra Company............................    58
    Prepared statement...........................................    60

 
            LOCAL IMPACT OF THE DEEPWATER HORIZON OIL SPILL

                              ----------                              


                          MONDAY, JUNE 7, 2010

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, 10 a.m., in the 
Council Chambers of the St. Bernard Parish Government Complex, 
8201 West Judge Perez Drive, Chalmette, Louisiana, Hon. Bart 
Stupak (chairman of the subcommittee) presiding.
    Present: Representatives Stupak, Markey, Degette, 
Schakowsky, Christensen, and Burgess.
    Also Present: Representatives Scalise and Melancon.

  OPENING STATEMENT OF HON. BART STUPAK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Stupak. This meeting will document today we have a 
field hearing entitled ``Inquiry Into the Deepwater Horizon 
Gulf Coast Oil Spill.'' I'd like to begin by thanking St. 
Bernard Parish and the officials here in Chalmette for being 
gracious hosts for today's hearing. I also wish to thank the 
United States Coast Guard, the United States Fish and Wildlife, 
the Louisiana Fish and Wildlife, and then the Louisiana Air 
National Guard for our trip down to the marshes last night.
    After this hearing, we will be further down in the Gulf 
later today as members are still exploring the impact that it's 
had on this region. I'd also like to recognize two of 
Louisiana's Congressmen: Congressman Charlie Melancon is 
supposed to be here. I'm sure he will be here any minute. He's 
running a little bit late, but he will be here; and Steve 
Scalise who are with us. Neither of them are members of the 
subcommittee. They are members of the full committee of the 
Energy and Commerce Committee, and because this is a field 
hearing in their home state, I ask unanimous consent that they 
be allowed to make an opening statement and ask questions 
during today's hearing. Without objection, so ordered.
    We will now hear from the members for their opening 
statements. The chairman and ranking member will be recognized 
for a five-minute opening and other members will be recognized 
for three minutes. I will begin.
    Let me begin today's hearing by expressing, on behalf of 
all members of Congress, our condolences to the friends and 
family members of those who died or were injured in the April 
20th explosion on the Deepwater Horizon oil rig in the Gulf of 
Mexico. Eleven lives were lost and 15 people were injured. Our 
hearts, thoughts, and prayers go out to those families and to 
the thousands of people impacted by this disaster as the well 
continues to spew oil into the Gulf and onto your shores.
    Today's Subcommittee on Oversight and Investigations 
continues our examination into the explosion and oil leak into 
the Gulf of Mexico. This is the second hearing that our 
subcommittee has conducted on the Deepwater Horizon incident 
and the third hearing that the Committee of Energy in Congress 
has held on this issue. While this oil spill is an 
unprecedented environmental disaster, it pales in comparison to 
the tragic loss of life. Our goal is that, with greater 
understanding of the effects of such a catastrophe, we can 
assure it will never happen again.
    On May 12th, our subcommittee held a hearing into the 
events surrounding the Deepwater Horizon explosion and oil 
spill. During that hearing, we learned that BP, Transocean, and 
Halliburton failed to address various issues with the rig, the 
well, and the blowout preventer prior to the explosion. BP and 
Transocean failed to ensure that the blowout preventer was 
fully operational. BP and Halliburton failed to identify 
discrepancies in pressure tests done in the cementing of the 
well. Subsequently, BP briefed our committee on the progress of 
its internal investigation. BP reported it had concerns about 
whether proper procedures were followed at critical times prior 
to and on the day of the explosion.
    As a result of the explosion, each day 12,000 to 19,000 
barrels of oil are leaking into the Gulf Coast threatening 
beaches, fishing grounds, critical wetland habitat, sea life, 
and waterfowl. BP officials said under a worst case scenario, 
the spill rate could reach as much as 60,000 barrels, 2.5 
million gallons a day.
    Several attempts by BP to stop the flow of oil have proven 
unsuccessful. No one knows the full extent of the damage to the 
Gulf Coast region. It may be several years before we can 
quantify the true impact of this massive oil spill, but here's 
what we do know: 88,500--88,502 square miles of coastal waters, 
37 percent of U.S. Waters in the Gulf have been closed 
resulting in the significant loss of income to fishermen and 
businesses. Oil from the spill has reached the barrier islands 
in Alabama and Mississippi and just reached Florida's shores 
this weekend.
    37,193 claims have been filed with BP to repay those who 
have suffered a financial loss as a result this spill. More 
than one million gallons of dispersants have been used to treat 
the area. These dispersants can be toxic to some--some 
organisms living in the coastal waters.
    Less than two weeks ago, some oil spill cleanup and 
recovery workers were hospitalized after complaining of 
dizziness, headaches, and respiratory problems. Several 
community groups have complained that BP failed to provide 
adequate protection for these workers. More than 700 birds and 
numerous sea turtles and at least one dolphin have been found 
covered in oil and dead on our Gulf shore.
    The Deepwater Horizon rig explosion and spill has had far 
reaching repercussions forever changing the lives of the 126 
people onboard the rig and their families.
    Each of our witnesses today has a story to share with 
America about how their lives have been changed by this 
horrible tragedy. On our first panel, we will hear from Natalie 
Roshto and Courtney Kemp whose husbands died during the tragic 
explosion on the oil rig.
    We--we will also hear from Gulf Coast residents about the 
effects of the oil spill and how it has impacted their lives 
and livelihoods across the Gulf Coast.
    Clarence Ronnie Duplessis is a commercial fisherman who 
relied on the coastal waters for his livelihood. He has been 
deeply impacted by the closing of the coastal waters and is now 
struggling to get by in what was supposed to be the first good 
year of the season of fishing since Hurricane Katrina.
    Dr. Moby Solangi is president and executive director of the 
Institute of Marine Mammal Sciences protecting marine mammals 
from exposure to toxins like oil and dispersants.
    Dr. Solangi has studied and written about the impact of 
Louisiana crude oil on fisheries.
    Mr. Kelby Linn is the owner of ACP Real Estate, a beach 
front rental real estate broker of Dauphin Island, Alabama, who 
has been a--who has seen a substantial decline in rental 
reservations as a result of the oil spill. The drop began to 
occur almost immediately after the oil spill despite the fact 
that oil only reached Dauphin Island last week.
    Wilma Subra has recently conducted a health survey of 
residents of the Gulf region and those working on the cleanup 
to determine whether they have been physically affected by 
pollutants from the oil and the dispersants.
    I want to thank each of our witnesses for sharing their 
stories today, especially Mrs. Roshto and Mrs. Kemp. Your 
testimony to the subcommittee will be a valuable tool in 
helping us to determine this horrible--helping us to address 
this horrible human and environmental tragedy.
    I'd now like to turn to the ranking member of the 
subcommittee, Mr. Burgess of Texas, for an opening statement. 
Before you do that comment, I thought I saw Mr. Melancon come 
in. There you are.
    Mr. Melancon. Good morning.
    Mr. Stupak. Charlie, thanks for being here.
    Mr. Burgess, opening statement, please.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. Thank you, Mr. Chairman, and thank you for 
convening this hearing. Certainly, we want to thank the St. 
Bernard's parish president and council for generously offering 
this venue for the subcommittee's use. Certainly, we want to 
welcome our witnesses here today.
    St. Bernard Parish was totally devastated by Hurricane 
Katrina. In fact, my first trip here was September of 2005.
    I came down at the request of a group of doctors at your 
hospital and stood in the parking lot of your hospital and saw 
firsthand what--what you were dealing with. I remembered 
driving through the town. We had to come in through a 
checkpoint that was secured by FEMA. You had to have special 
permission in coming to town; and FEMA, of course, recorded 
that the town was 100 percent destroyed.
    What I wasn't prepared for as we drove along the streets 
were evidence that people were moving back into the area 
despite of the fact that FEMA had the entire area cordoned it 
off. People were in their front yards living in tents and tarps 
and going about their daily lives in spite of all of the 
devastation around them. This area has extraordinary 
resilience. I personally witnessed it. Sadly, that resilience 
is once again being tested to the maximum.
    We will hear today about the local impacts from the oil 
spill, impacts which have a tremendous impact on the 
livelihoods of the people who live in St. Bernard Parish and 
Plaquemines Parish, particularly and throughout the Gulf Coast. 
I think it is both helpful and important to listen to those 
most affected by the spill to understand their perspectives on 
this catastrophic event.
    And also, Mr. Chairman, with you I offer my condolences to 
Natalie Roshto and Courtney Kemp who will be speaking with us. 
They both lost husbands on the Deepwater Horizon. I appreciate 
you being here this morning. I know it is important that 
America hears your stories and I look forward to your 
testimony.
    We will hear about the impacts to people who make a living 
off of Louisiana's fisheries. Since the spill, the state has 
closed vast sections of Louisiana shrimping grounds and oyster 
beds bringing immediate hardship to people who rely on this 
industry.
    The federal government, as the chairman said, the federal 
government has closed large tracts in the Gulf, over 88,000 
square miles, about 37 percent of the Gulf's waters closed to 
fishing. At least almost two thirds open, along with other 
state controlled waters, but there's legitimate concern that 
the demand for products from anywhere in the Gulf will plummet 
as people watch the spill on the news and become concerned 
about the long-term fishing aspects.
    And I say this as a dedicated and aggressive consumer of 
crustaceans, you can't help but notice what you are seeing on 
the television screens currently, and it is going to have an 
impact on the desire of consumers to buy those products. The 
news images and actual impacts are also hitting the Gulf 
coast's large tourism industry. And, again, I think we are 
scheduled to hear more about that this morning.
    The oil spill has done much to reveal the delicate balance 
and the connections between nature and the various industries 
that rely upon the resources near the Gulf Coast. These 
industries, fisheries, tourism, and industry, are all 
significantly intertwined and where one is impacted it directly 
affects the others. As we gather important information from the 
witnesses today, we should keep in mind this balance.
    Just last week the president and secretary of the interior 
announced a moratorium on drilling in waters over 500 feet. The 
Wall Street Journal last Friday reported that even permits for 
shallow water drilling have been rescinded. While we are still 
trying to evaluate the economic impacts of these actions, 
initial evidence suggests thousands of people who have been 
relying upon activities within the energy industry for their 
livelihoods will also be affected.
    According to a Bloomberg News report, shutting down 33 deep 
water rigs will cost as many as 6,000--6,000 jobs in the next 
three weeks alone. And in the New York--New Orleans Times 
Picayune, it reports that each job in energy exploration 
supports an additional four jobs providing supplies and 
services. We cannot lose sight of the role of energy in the 
economy of the Gulf Coast. Energy helps power the other 
industries both directly and indirectly through economic growth 
and income. To hinder this aspect of the economy while other 
sectors are struggling is not a good way to help the Gulf Coast 
address this unfolding tragedy.
    This subcommittee is in the midst of a close and thorough 
investigation of BP and the other subcontractors behind what 
has become a national tragedy. I am confident that at the end 
of the day we will identify the factors and decisions that led 
to the catastrophic blowout. We are rapidly developing 
information that at least suggests this tragedy was entirely 
avoidable. In time our investigation will inform what practices 
need to be put in place or enforced to maximize the safe and 
secure American energy production.
    Mr. Chairman, we have to get it right. This is an important 
hearing to take a close look at the impacts of oil spills, to 
get an on-the-ground perspective so sorely needed in 
Washington, and it is a chance to understand what happens when 
the delicate balance between nature and industry is upset, and 
to identify policies that will help right that balance; and I 
pray that righting occurs soon.
    I'll yield back the balance of my time.
    [The prepared statement of Mr. Burgess follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Stupak. Thank you, Mr. Burgess. Next we'll go to hear 
from members of the subcommittee for three minutes. I'm sorry. 
Vice-chair of the committee, Mr. Braley, from the wonderful 
State of Iowa. Mr. Braley from Iowa.

OPENING STATEMENT OF HON. BRUCE L. BRALEY, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IOWA

    Mr. Braley. Thank you, Mr. Chairman. I want to also thank 
the St. Bernard's parish council for hosting us today and to 
our first panel of witnesses, Mrs. Roshto and Mrs. Kemp, I want 
to thank you for having the courage to come share your stories 
with us today. It's never easy and there's nothing we can do 
today to replace the pain of your loss, but the one thing we 
can do is never forget what your husbands went through and what 
those other men on the rig went through and to get to the 
bottom of why that happened and make sure that it never happens 
again so that no other family has to go through what you have 
gone through; so thank you for coming today.
    I think that one of our witnesses on the second panel, Mr. 
Chairman, Clarence Duplessis, summarized the concerns of most 
of us on the committee in his opening statement when he said, 
``There are really more questions than answers for what 
happened out on that Deepwater Horizon rig.'' That came out 
during our first hearing, and one of the things that concerns 
many of us is the story keeps shifting.
    We were originally told that there was a release at the 
wellhead of around a thousand barrels per day; then when BP's 
CEO appeared and testified in front of our subcommittee 
hearing, that number was up to 5,000 barrels per day; and just 
last week we were told that BP was excited because they were 
capturing 10,000 barrels per day, which was estimated to be the 
one quarter to one half of the release from the wellhead.
    The environmental and economic devastation to this area and 
the entire Gulf Coast region cannot even be comprehended at 
this stage.
    Our job as the Oversight and Investigations Subcommittee is 
to get answers to those questions, to find out why this 
happened, to find out how it happened, to find out who is 
responsible and what they must do to be held accountable.
    One of the things we know is that the economic devastation 
is going to be severe and long lasting, and the witnesses we 
are going to hear from today will help us put a human face on 
that tragedy. But there are also disturbing parts to this story 
that we need answers to; and one of the things that we have 
done is ask for specific information from BP, Halliburton, 
Transocean, and others involved on that drilling rig. And one 
of the things that is disturbing is when we ask for specific 
information, as I did following our May 12th hearing, and 
getting back a response only after a second follow-up request 
was sent that was incomplete and ignored the request that we 
made at the time of the initial hearing.
    Mr. Chairman, it's obvious to me that we are going to have 
to continue to pursue answers to the questions. We need to have 
additional hearings as necessary until the people of Louisiana, 
Mississippi, Alabama, Florida, and indeed the entire United 
States, know what happened and what we are doing about it.
    And I'll yield back the balance of my time.
    Mr. Stupak. Thank you, Mr. Braley. Mrs. Christensen for an 
opening statement for three minutes, please. Mrs. Christensen 
from the Virgin Islands.

       OPENING STATEMENT OF HON. DONNA M. CHRISTENSEN, A 
       REPRESENTATIVE IN CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you. Thank you, Mr. Chairman, and 
good morning.
    I feel sort of like deja vu all over again. In September of 
2005, my staff and I came to hear firsthand the health impacts, 
but most importantly the health needs of the people of New 
Orleans in the wake of Hurricane Katrina. It was the first of 
many visits. And now with this region barely back on its feet 
from that tragedy, we are here for another one, which is the 
words of many residents even that we will talk of more for 
many, many reasons.
    So thank you, Chairman Stupak and Ranking Member Burgess, 
for having this oversight hearing, not in Washington, but right 
here where its impact is being seen and felt.
    First of all, my condolences to the families of the 11 
workers who were lost. And thank you to Mrs. Kemp and Mrs. 
Roshto for joining us this morning, for being willing to 
testify, for your courage and that of the other families who 
you represent, and for the important positions that you are 
taking on the future of our offshore drilling in spite of your 
loss as well as on the Death of the High Seas Compensation Act, 
which is an insult to the dedication of the oil workers and the 
families who sacrifice when they leave home for weeks at a 
time.
    We wish a speedy and full recovery to those who were 
injured and to those whose lives and livelihood have been 
disrupted and damaged for what remains an uncertain future.
    We know what lies ahead will not be easy, but we commit to 
working with President Obama and to do everything we can to 
bring your communities and your lives back to as close to 
normal as possible as soon as possible.
    In every briefing and hearing of this subcommittee and 
those of my other committee of natural resources, I've asked 
BP, the Coast Guard, and others for assurance that everything 
that needed to be done was being done to prevent both short- 
and long-term health impacts, including providing and using 
protective gear. It seems that the assurances which we received 
were empty. Without the insistence of residents, the decisions 
of courts, and the vigilance and advocacy of groups like LEAN 
and LMRK and Subra, it appears that nothing would have been 
done despite what we know from past experiences. This is very 
troubling; and I look forward to hearing from our witnesses on 
what they feel we as a committee in the Congress need to do at 
this point.
    I remain reluctant on the issue of new drilling, but I am 
clear that strengthened regulation and enforcement that 
markedly improved safety measures for the offshore drilling 
that is now permitted, that increased accountability of the 
companies involved in the process, and that the fullest 
possible recovery for all that has been damaged must be a part 
of our responsibility going forward.
    I thank you, Mr. Chairman. That concludes my statement, and 
I yield back my time.
    Mr. Stupak. Thank you. And as members know, our 
subcommittee just don't do a hearing or two. This is our second 
hearing. We will be doing another one within the next two weeks 
with the head of BP, Tony Hayward, up in Washington, and later 
this month we have a fourth hearing set.
    So, as you know, like Hurricane Katrina, our committee came 
down--I led that group--our committee came down to deal with 
the health aspect after Hurricane Katrina, so our committee 
will stay with this issue. And it should be noted we have, if I 
count right, nine members here. Rather unheard of to have nine 
members to come down for a field hearing. Each hearing we have 
had on these tragic circumstances, all members have shown up, 
so I want to thank the members for taking the extra time for 
being down here and take time out of their schedules and, of 
course, Mr. Melancon and Mr. Scalise also who are valuable 
members of our committee.
    Next we will hear from Mr. Markey from Massachusetts. Mr. 
Markey is chair of the Energy and Environment Subcommittee of 
the Energy and Commerce Committee. Mr. Markey is also the 
chairman of the Select Committee on Climate Change.
    Mr. Markey, opening statement, three minutes.

OPENING STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Thank you, Mr. Chairman, very much. Our hearts 
go out to those whose loved ones were lost in this explosion. 
We thank you for being here today. It takes a lot of courage. 
Mrs. Roshto and Mrs. Kemp, we thank you for being here. It's 
important that you are here and we all extend our sympathies to 
you and to your families.
    We begin to appreciate how vital our role in the oceans 
play in our economy as soon as we saw the impact from that 
explosion; and we've become increasingly frustrated as each 
rosy assurance provided by BP failed to be true and every 
attempt to stop the oils flow failed to work.
    Every day as this oil encroaches on the wetlands, 
estuaries, and beaches, the entire nation shares in the anxiety 
and anger felt by the people living in the Gulf region. It is 
clear by BP's actions that while they spent billions of dollars 
to develop technologies that would allow it to drill ultra deep 
into the ocean, that investment was not matched with the 
development of ultra safe technologies that could prevent, 
contain, and cleanup the consequences of these types of 
drilling operations. It has also become clear that just as no 
one has capped BP's profits, the great damage it has caused, 
and as a result we must make sure that BP must repay everything 
that they have caused in terms of damage and that should not be 
capped as well. BP must be held accountable.
    Oil has made its way onto the beaches of four coastal 
states from Louisiana to Florida. As of yesterday, 
approximately 33 percent of the fisheries in the Gulf of Mexico 
had been closed depriving people of their livelihoods. I've 
seen firsthand with the other members the stain of BP's oil on 
the cane in the marsh land and heard of the birds, the fish, 
and the dolphins that have already been killed by oil.
    We have also heard reports that there may be plumes of 
subsurface oil posing an insidious threat to deep sea coral and 
other marine life, oil that will not make its presence known by 
the clear signs of tar balls or oiled birds but which could, 
nevertheless, affect generations of aquatic life too.
    Remarkably last week, BP's chief executive, Tony Hayward, 
claimed that BP didn't have enough resources in its toolkit to 
handle the Gulf oil disaster. That is why this week I will 
introduce the Oil SOS Bill that will require companies to fund 
research and development for upgraded safety and cleanup tools, 
so that in the future companies like BP will never again be 
relying on 30-year old technologies to deal with 21st century 
problems. That is unfair to the families who must suffer the 
consequences of the lack of preparation by BP.
    Thank you, Mr. Chairman.
    Mr. Stupak. Thank you, Mr. Markey. Ms. DeGette from 
Colorado, opening statement, please.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you very much, Mr. Chairman. In late 
August of 2005 a perfect storm, Hurricane Katrina, formed over 
the Gulf devastating homes and taking a terrible toll on human 
life and the economy. This spring, five years later, the 
residents of this area, being resilient and caring and working 
hard, had just started to turn their economy around and rebuild 
their lives when another perfect storm hit, this one being 
entirely man-made.
    And the Deepwater Horizon explosion and oil spill is a 
national tragedy and we are all terribly concerned about it, 
but the local effects are felt far more acutely. The human 
impact in terms of loss of life and injuries and the economic 
impact to the local fishing and tourism industries and the 
environmental impact along the Gulf Coast are all terrible and, 
frankly, the effects will last indefinitely longer than we 
know. Accidents on this scale raise many questions about what 
went wrong; and in this case, as usual, there's no single 
answer on who to blame.
    We have had, as the Chairman said, several hearings in this 
committee and also in the natural resources committee on which 
several of us sit where we have probed the causes of the 
accident, but what we have been able to tell to date is that it 
really was a perfect storm. We had a blowout preventer testing 
and a certification problem, we had faulty cementing, we had a 
lack of a chain of command. We had many, many problems that are 
going to take a long time to sort out; but, as the Chairman 
said, this committee is nothing if not stubborn and diligent 
and we are going to get to the bottom of it because, if we 
don't, this could happen again and we can't let this happen 
again.
    In terms of human life, in terms of loss of ecosystem, in 
terms of loss of economy and jobs, we can't--we might have 
another environmental perfect storm. Mother nature's 
unpredictable, but we can't be causing these impacts ourselves. 
We have to make sure that systems are in place so that when the 
important drilling that occurs out here is done it's done in an 
environmentally safe way and in a way that will save human 
lives.
    Natalie and Courtney, I want to echo what my colleagues 
have said. This is a terrible loss to you and to your families, 
and we are here to sympathize with your losses; but much more 
than that, we want to do what you want to do. We want to make 
sure that we work with you so that this never happens to any 
other families.
    And, Mr. Chairman, I yield back.
    Mr. Stupak. Thank you. Ms. Schakowsky, opening statement. 
Ms. Schakowsky is from Illinois.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman and Mr. Burgess, 
for holding this very important hearing here in Louisiana; and 
I'm really happy that we can be here to offer support and 
solidarity to our colleagues, Congressmen Melancon and Scalise.
    And over the last six weeks, we have been reminded once 
again of the tremendous cost of our nation's reliance on oil to 
meet our energy needs. The oil spill in the Gulf Coast is not 
only a human tragedy leading to the loss of 11 lives, but an 
unprecedented environmental disaster and yet another economic 
catastrophe for this region.
    For what it's worth, we are here in part to express our 
sympathy and support not only to the families of those workers 
who perished but also to everyone who lives or works in the 
Gulf region; but I know you want more than sympathy, you want 
to see action.
    And to Mrs. Roshto and Mrs. Kemp, I want to express my 
gratitude and admiration for the courage that you have for 
being here today and turning your personal tragedy into 
suggestions of what we can do better to avoid this in the--in 
the future.
    The Deepwater Horizon spill is a devastating reminder that 
the United States must implement a comprehensive energy 
strategy that weans our nation off of oil and spurs development 
of cleaner renewable sources like wind and solar power, but as 
long as we drill, we must enforce, vigorously enforce, current 
law. We also have to quickly determine holes in that regulatory 
and enforcement framework. For example, Canada requires a 
relief well at the very same time any deep water well is 
drilled.
    I also believe it's imperative that we raise or completely 
eliminate the cap on damages imposed on oil and gas companies 
that cause--that cause environmental catastrophes. It's 
unconscionable that current law allows companies like BP to 
make billions of dollars in profits and then when an accident 
occurs the law protects--well, we'll see--but may protect them 
from paying for the damages they caused.
    But the point of today's hearing is to learn about the 
impact of the oil spill at the Deepwater Horizon drilling rig 
site on the Gulf region. And we are hearing from, of course, 
these two widows today, representatives of some industries that 
are being hit the hardest; and I want to thank each and every 
one of you for being with us today. I know how difficult the 
last six weeks have been, or I can try and know that, but I 
want you to know that we truly appreciate hearing your 
perspective of this unprecedented disaster and we will be 
working to make sure that we address the problems and assure 
that it never happens again.
    Thank you, Mr. Chairman.
    Mr. Stupak. Thank you. Let's hear from our two native sons 
here, Charlie Melancon, a member of--valuable member of our 
committee. Opening statement, please, sir.

OPENING STATEMENT OF HON. CHARLIE MELANCON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Melancon. Thank you, Mr. Chairman. First, Mrs. Roshto 
and Mrs. Kemp, on behalf of Peachy and I, our condolences to 
you and thank you for having the courage to be here today.
    Mr. Chairman, thank you, Ranking Member Burgess, thank you 
for taking the time and interest in my state, our people, our 
environment, our livelihood, for coming to this field hearing 
and working to ensure that a tragedy like this doesn't happen 
again.
    The news coverage is constantly reminding us that we are 
facing the largest environmental disaster in our nation's 
history. It's hard not to draw comparisons to a similarly grim 
milestone five years ago when this district and our state bore 
the brunt of the largest natural man-made--natural disaster in 
history as well.
    I mention this association because it's easy to become 
distracted by the torrent of bad news that streams all day 
long, but we are here today to help make sure the effects of 
this tragedy on real people's lives aren't forgotten and aren't 
repeated. And I might add a footnote: Louisiana is still open 
for business and, even more importantly, the communities right 
now along the coast need for the citizens of the state and the 
neighboring states to come and enjoy Louisiana.
    And we need to make certain that this investigation into 
what went wrong is thoroughly carried out. We must examine all 
solutions that may guard against a disaster like this ever 
happening again.
    We are fortunate to have witnesses today who will share 
their frustrating and heartbreaking stories with us. These 
stories are not easy to share, so I sincerely appreciate the 
willingness of the witnesses to come before this group and to 
share their personal accounts. Hopefully, this hearing and 
others like it will reveal the pattern of mis-steps and 
negligence that led to this continually growing catastrophe.
    Because the responders work as fast as possible to cap this 
well and protect our marshes, it is important to identify what 
must change to keep another disaster like this from striking 
our fragile coast. In addition, we must make sure that the 
safety of the workers in America and on these rigs is 
protected.
    These rigs in the Gulf represent a tremendous segment of 
the economy in south Louisiana; and the sooner we ascertain the 
vulnerabilities the sooner we can fix those problems and have 
our men and women working again in a safe environment.
    I'd also like to thank the expert witness panel for 
participating today. I'm afraid that when the cameras and the 
national attention leaves, we in Louisiana will only be--just 
be commencing with our recovery. The toxic pollution in the 
Gulf waters could knock out our fisheries and industries along 
that area and our way of life for years to come, if not for 
decades. We need your expertise to help recognize the actions 
we can take to mitigate these scenarios and to make our 
resources productive again as soon as possible.
    Again, Mr. Chairman, ranking member, thank you for holding 
this hearing. With that, I yield back.
    Mr. Stupak. Thank you, Mr. Melancon. Next we will hear from 
another valuable member of our committee, Mr. Scalise.
    Opening statement, please, sir.

 OPENING STATEMENT OF HON. STEVE SCALISE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Scalise. Thank you, Mr. Chairman, for holding this 
hearing and bringing the committee to Louisiana to hear about 
the Deepwater Horizon spill and how it's affected the people of 
the Gulf Coast.
    I extend my deepest condolences as well, as other members 
have already expressed to Mrs. Roshto and Mrs. Kemp for 
appearing here today to share your stories with us because my 
thoughts and prayers are with you and all 11 families who are 
going through what is a real human tragedy. We see so much, the 
stories of the oil coming up and we are fighting that side of 
it, but you are fighting every day a different side of it and I 
don't think we have heard enough of your side of the story as 
well, so I appreciate both of you being here with us as well.
    It's nearly five years after Hurricane Katrina and we are 
fighting yet another major disaster here in south Louisiana. In 
fact, the room we are sitting in right now was completely under 
water after Katrina. You've seen the resiliency of the people 
of St. Bernard Parish, who I appreciate their hospitality, and 
you can see their strength and how they've come back from this, 
but it's not been easy. And we know that the next months or 
more ahead are not going to be easy for us as well, but we need 
to get answers.
    Just like when a plane crashes, you don't stop flying. You 
find out why that plane crashed and you move forward. We need 
answers that we still haven't gotten to find out why this 
disaster happened.
    We have already heard some reports. There has been a 30-day 
study. We need to get the results of that study so that we can 
learn more as well, but we've also got to make sure that we 
continue to hold BP accountable because they testified before 
our full committee under oath that they would pay all damages. 
And I intend and I know my other colleagues intend to hold them 
to that.
    But in the meantime, our top priority has got to be 
stopping this flow of oil that's coming out and protecting our 
valuable marshes from being inundated by the oil. If the 
blowout preventer that failed to work properly was supposed to 
be the rig's last line of defense against this type of 
disaster, then the federal agencies that regulate these rigs 
were supposed to be our first line of defense and they failed 
us as well. We still need to get those answers from the federal 
regulating agencies and the work and the tests that they've 
performed prior to the explosion to find out what went wrong.
    There are a lot of other rigs out there in the Gulf in even 
deeper waters than the Horizon that haven't had these kinds of 
problems, so we should also see what they are doing that was 
not being done on this rig and the mistakes that were made by 
BP and Transocean and the other parties responsible.
    But we also need to establish a real chain of command. We 
still don't have a structure that allows for accountability. 
Every time we try to get answers--when our local leaders who 
are battling this every day have problems with the recovery, we 
just see more finger pointing. That's got to stop. We have got 
to have a real chain of command, and BP should not be the 
gatekeeper for our local responders who are trying to protect 
our valuable marshland.
    We also need to address this drilling ban. Not only do you 
now have a human disaster and an environmental disaster, but 
the ban on drilling threatens to pose an economic disaster on 
our state. That is not a proper response to what happened.
    I'm calling on the president to reconsider his decision to 
go meet with all of us who deal with the industry who have seen 
the successes of the industry and understand how drilling can 
be done in a safe and environmentally friendly way. You don't 
hold an entire industry accountable for the failures of one. We 
have got to find out what went wrong and make sure it doesn't 
happen again, but you don't ship 30,000 jobs and billions more 
dollars to the middle eastern countries who don't like us as a 
response.
    Thank you, Mr. Chairman. I look forward to the hearing and 
I yield back.
    Mr. Stupak. Thank you, Mr. Scalise. That concludes the 
opening statement by members. Let's have our first panel of 
witnesses.
    On our first panel, we have Mrs. Natalie Roshto whose 
husband Shane was killed during the explosion of the Deepwater 
Horizon oil rig. Shane and Natalie were married for four and a 
half years and have a three-year-old daughter together.
    Mrs. Courtney Kemp whose husband Wyatt was killed during 
the explosion. Wyatt and Courtney were high school sweethearts. 
They were married five and a half years and have a three-year-
old and a four-month-old daughter. Thank you both for being 
here.
    It is the policy of this subcommittee to take all 
testimonies under oath. Please be advised that you have the 
right under the rules of the House to be advised by counsel 
during your testimony. Do you wish to be represented by 
counsel, Mrs. Roshto?
    Mrs. Roshto. I've been represented.
    Mr. Stupak. Move that mic forward, please.
    Mrs. Roshto. I have counsel.
    Mr. Stupak. OK. Would you just for the record identify your 
counsel's name?
    Mrs. Roshto. Ronnie Penton and Scott Bickford.
    Mr. Stupak. OK. If during testimony, if you want to consult 
with them, just take a moment and do so. If they testify, they 
would have to be sworn in.
    Mrs. Roshto. OK.
    Mr. Stupak. Mrs. Kemp, are you represented by counsel?
    Mrs. Kemp. I am not formally represented, but I do have Mr. 
Barry Rhodes here with me today to give legal advice and 
guidance.
    Mr. Stupak. Very good. And, again, any time during your 
testimony or questions if you would like to consult with him 
before you answer, please do so, OK.
    Mrs. Kemp. OK.
    Mr. Stupak. So I'm asking you to please rise and raise your 
right hand to take the oath.
    [Witnesses sworn.]
    Mr. Stupak. Let the record reflect the witnesses replied in 
the affirmative. You are now under oath. We will now hear your 
opening statement from our--from each of you.
    Mrs. Roshto, do you want to begin, please?
    Mrs. Roshto. Yes.
    Mr. Stupak. I'm going to ask you to pull that mic up closer 
to you so we can all hear.

    STATEMENTS OF NATALIE ROSHTO, WIFE OF SHANE ROSHTO; AND 
               COURTNEY KEMP, WIFE OF WAYNE KEMP

                  STATEMENT OF NATALIE ROSHTO

    Mrs. Roshto. Good morning. Before I begin, I would first 
like to thank each and every one of you again for allowing me 
to speak today on behalf of my husband, Shane Roshto, who was 
tragically killed in the Deepwater Horizon explosion, myself 
and our wonderful son, Blaine.
    In the early hours of April 21st when I received the news 
of the explosion and a fire, I never thought I would be sitting 
here. I never thought I would go home to a bright eyed three-
year old and have to face the fact that his dad and my husband 
would never come home to us.
    Every three weeks when Blaine and I would give Shane our 
last love sending him off for three weeks, I would always fear 
the helicopter ride, but never did this tragedy ever come to 
mind. But through God's grace, family, and friends, we are 
making it through. After all the safety school meetings, fire 
drills, and safety regulations, I knew he was safe.
    When the events of the Deepwater Horizon explosion started 
to unfold, I asked myself will I ever personally recover. What 
if he's out there and they just didn't look long enough? As the 
days passed, Shane's absence became a reality.
    My husband took great pride in his job. He loved his work 
and all his Deepwater Horizon family; but most important, he 
knew offshore provided the life he wanted for our son. He loved 
us unselfishly and provided a lifestyle that allowed me to 
attend college and to be at home with our son. During Shane's 
off weeks, he spent every day with Blaine passing on his love 
for the outdoors, hunting and fishing and doing for others.
    A little background on how Shane and I began. We met at 15 
years old. We were high school sweethearts. At 18 years old, I 
found out I was pregnant. Shane came to me the day I found out 
I was pregnant and he said, ``I'm going to be here for you and 
Blaine, and the only way I'm going to do it is to go 
offshore.'' And he did. That's what he did for me and Blaine. 
As the days passed, I asked why. What happened? The life Blaine 
and I knew was over. My wonderful love story had come to an 
end. Though he is a mirror image of his daddy, Blaine has now 
the void that will never be filled.
    When I--the day I found out, when I got that phone call at 
6:00 April 21st and I heard what had happened, I knew he was 
safe. I just knew he was coming home. As I went--I went to 
Fourchon because the only thing I knew was to get closer to the 
water, just to get to the water. I knew that's where he would 
be. As the hours passed and I received a phone call that he was 
on the missing list and they were searching for him, I was 
devastated. I never thought it would be on this level ever.
    As I sit here today, though, I come with a new perspective, 
a perspective that I hope can make a difference, one that will 
ensure safety to every man in the oil field.
    And I do fully support offshore drilling and always will 
because I know, like my husband Shane, many men and women 
depend on this means--this as a means to provide for their 
family and also to provide for our country with a commodity 
that is necessary to everyday life.
    I would like to leave here today knowing that because of my 
husband's tragic death, we can begin to focus on making safety 
the most important priority, not to focus on making more safety 
regulations but on ways to effectively implement the ones that 
we already have. This tragedy will not be in vain because as of 
right now my husband's death is in vain, but it will not be in 
vain if it serves to make the lives of every man and woman 
working in the oil field the top priority and cause these 
powerful oil companies to know that they will be held 
accountable for their actions.
    My intense interest in Shane's work led us through many 
conversations detailing work carried out on the Deepwater 
Horizon and the many safety practices that were in place. It is 
my hope that these 11 men who suffered a tragic death will 
serve as a motive to enforce safety above all else.
    In the weeks that Shane was home, the last time he left to 
go offshore we had many detailed conversations of the wrong 
that was going on out there, all the mud they were losing, the 
high pressure situations they were in. I pray every day when I 
awake and have bedtime prayers with Blaine that I can sit him 
down one day and be able to tell him that his daddy was a hero, 
a hero to all oil field men and women because his death changed 
the heart and soul of those who place their business agendas 
over the importance of life.
    In closing I would like to--well, what I would like to 
accomplish today before I say that, is the removal of Death on 
the High Seas Act. It is beyond me that any man that is injured 
out there has more right than a man that was killed providing 
for his country and his family.
    In closing I would like to ask that the next time you see a 
picture of the Deepwater Horizon in flames or hear about the 
oil spill, you think about this: The flow of oil eventually 
will be stopped, slowly the environment will recover, the Gulf, 
I pray, will continue to provide us with oil and gas and many 
other things that we all enjoy, but the lives of the 11 men, 
their survivors, and heroes of the Deepwater Horizon will 
forever be changed.
    We can only hope that the legacy of this tragedy will be 
much more than a devastating oil spill, but an unfortunate 
tragedy that prompted changes creating a safer environment for 
those who love their work in the oil fields of the Gulf of 
Mexico.
    [The statement of Mrs. Roshto follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   Mr. Stupak. Thank you. Mrs. 
Kemp, your opening statement, please.

                   STATEMENT OF COURTNEY KEMP

    Mrs. Kemp. Good morning. My name is Courtney Kemp and I'm 
from----
    Mr. Stupak. May I ask you to pull that up a little bit, if 
you can, or scooch up a little bit more to the table or slide 
that over.
    Mrs. Kemp. Good morning. My name is Courtney Kemp and I am 
from Jonesville, Louisiana. My husband is Roy Wyatt Kemp, one 
of the 11 men killed on the Deepwater Horizon oil rig that 
exploded on April 20, 2010. On behalf of my husband and my 
family, I would like to thank you for the opportunity to speak 
regarding the oil issues in the oil and gas industry.
    My husband and I have two precious daughters, Kaylee, 
three, and Maddison, four months. Our girls will only know what 
a wonderful father they had by the stories we tell them. While 
I understand companies must make a profit, I do not believe it 
should be at the expense of risking lives or destroying 
families. I am asking you to please consider harsh punishment 
on companies who chose to ignore safety standards before other 
families are destroyed.
    I am not here today to suggest that Congress implement more 
safety regulations, but rather to encourage you to hold 
companies accountable for safety regulations already in place 
and merely neglected. If proper safety procedures had been 
taken on the Deepwater Horizon, it is my firm belief that this 
tragic accident would have been prevented and my husband and 
the others would be alive today.
    It is no secret that the oil field has effected the 
environment. One can see the devastation that is happening to 
the coastline and the magnitude of its effects on the seafood 
industry in general. However, our state has overcome many 
adversities in the past, including numerous weather related 
issues such as hurricanes and droughts. We as Americans are a 
strong people and will recover from this tragedy as well.
    America is a rich nation regarding natural resources, but 
in my opinion we have become too dependent upon foreign 
imports, this including oil. While we realize we are suffering 
from economic impacts resulting from the leaking oil, it will 
be even more devastating if you allow drilling in the Gulf to 
cease. If drilling ceases, not only would offshore employees 
lose their jobs, but the trickle down effect would be 
devastating not only to the coastal states but eventually the 
entire country. You must not allow this to happen. Drilling in 
the Gulf must continue.
    I would also like to speak with the members of Congress 
about one of the many acts of Congress that may have a negative 
effect on my family's future. The Death on the High Seas Act is 
an antiquated act of Congress passed in 1920 which spells out 
the losses that the family of a person who suffers wrongful 
death on the high seas may recover.
    DOHSA is a comprehensive act that limits allowable damages 
for deaths occurring on the high seas. This act does not permit 
the applications of state wrongful death remedies. It does not 
look to general maritime law to--to supplement the act's 
limitations. In essence the act limits the liability of 
wrongdoers in this matter, such as BP, Transocean, and many 
others.
    My family can never and will never be adequately 
compensated for our loss. What I am seeking is an 
accountability from the wrongdoers who caused this terrible 
tragedy. I ask that the members of Congress use this 
catastrophe as a basis to revisit and amend this outdated act 
from 1920. Revise DOHSA with 21st century standards and 
realities in mind.
    Please use this opportunity to make corporate America more 
responsible and accountable. Require corporate wrongdoers to 
fully, fairly, and adequately compensate the victims of 
senseless accidents. Thank you.
    Mr. Stupak. Thank you. Thank you both for your testimony. 
Let me ask a question or two, if I may. We will start with 
questions from members.
    Our investigation has uncovered several flaws in the design 
and operations of this well, including equipment malfunctions. 
From our investigation, we have learned that BP and Transocean 
were not prepared for a catastrophic loss of well control on 
the Deepwater Horizon like the one that occurred on April 20th.
    We have learned of the following problems, among many, but 
some of the more obvious ones are mechanical problems were 
uncovered as early as March of 2010; the blowout preventer, 
which is the fail safe tool designed to prevent a catastrophic 
loss of control, was not maintained properly and it was not 
fully tested. It appears BP made well design choices that may 
have compromised safety.
    According to BP's preliminary investigation, there were 
several signs of possible loss of well control in the 24 hours 
before the explosion, yet steps were not taken to safeguard the 
employees. It also appears BP made several cementing design 
choices that went against the best practices for the industry.
    This weekend we see adds from BP like this one we have here 
(indicating). And I point that out because it says ``we will 
get it done. We will make this right''. It reminds me of the 
marshes we were in last night. Once the oil gets in those 
marshes, you really can't get them out. Mother nature has to do 
that; but more importantly, it can't make your loss right. And 
the part that disturbs me, the ad never mentions your loss, 
that of the 11 people who died and those who were injured.
    So let me ask you this, Natalie and Courtney: What would 
ask these companies, BP and Transocean? What would you ask them 
if you had the opportunity? Hopefully, you can do it through 
us. Mrs. Roshto.
    Mrs. Roshto. If I had the opportunity to ask BP one 
question, it would be--I know that my husband can't come back. 
There's nothing I can do or say to make him come back, but why? 
What went wrong? Why weren't you out there trying to do 
something in the weeks before when they were having problems?
    Mr. Stupak. Mrs. Kemp.
    Mrs. Kemp. I would also ask why but in a different sense. 
Why is it that money is more important than someone's life? 
Why?
    And I'm extremely upset that BP has never mentioned the 11 
or the ones that are injured or the men that are struggling 
mentally that survived that tragic night.
    Mr. Stupak. In this hearing you mentioned the Death on the 
High Seas Act. I'm sure every member here knows of it and we 
will look at it and, as the Congress of the United States, I'm 
sure all Congress will.
    What other hopes do you have this hearing will accomplish? 
What else would you like to see come from these hearings? You 
mentioned safety, you mentioned the High Seas Act. Anything 
else you would like to see, Mrs. Kemp?
    Mrs. Roshto? I'm afraid to ask your counsel because I'm 
sure they have a list of them for us, but----
    Mrs. Roshto. My hope from this hearing is to not stop 
offshore drilling. That's--that has--when I saw that and heard 
that, that hit deep because my husband took great pride in his 
job. And many men, many men depend on offshore drilling. That 
is our way of life. I mean I--that--that would not do these men 
any justice one bit.
    Mrs. Kemp. I totally agree with Natalie's statement in that 
our husbands will--being a Christian, we will one day again see 
our husbands, but it is important now that Congress and the 
government in itself takes--takes pride in knowing that there 
are men out there that work every day to put fuel in your 
vehicles, to heat our homes, and that is something that is 
merely neglected.
    And I hope today that people realize how important offshore 
drilling is and how important it is not only to the coastal 
states where so many people work--because we do live in very 
rural areas and offshore work is a way for families to make a 
living and to be able to provide for children, and I hope that 
you work very hard and diligently to make sure that drilling 
continues in the Gulf.
    Mr. Stupak. Well, I can't speak for all the members, but 
from where I sit, drilling will continue. Right now after this 
tragic accident, I think we need to pause here. Let's see what 
went wrong. Let's make sure it doesn't happen again. Whether 
it's a shallow well or a deep water well, let's make sure we 
get it right. We can't have more hearings like this with young 
folks like you coming talking about your tragic loss and the 
environment being devastated in the Gulf, so I think we ought 
to slow it down for a minute here. Let's see what's going on. 
Let's get proper rules, regulations, safety concerns addressed. 
And I think there will always be drilling in the outer 
continental shelf or wherever in this country. We've just got 
to do it better, safer.
    With that, I want my questions--we are going to go--This 
will be the order of questions so all will know:
    Mr. Burgess will go, Mr. Braley, Mr. Markey, Ms. DeGette, 
Ms. Schakowsky, Mrs. Christensen, Mr. Melancon, and Mr. 
Scalise.
    Mr. Burgess, five minutes, please.
    Mr. Burgess. Thank you, Mr. Chairman. And, again, I want to 
thank our witnesses for being here today. I want to thank you 
for bringing to our attention Chapter 21, paragraph 761 of the 
Death on the High Seas Act. You know, it's interesting we have 
been talking about changing the law where BP's liability is 
capped at $75 million to $10 billion, but--but that actually 
wouldn't help what you are talking about on the Death on the 
High Seas Act where no--no liability occurs beyond three miles 
out from the shore. And clearly, as we--as we adjust for the 
21st century the liability of the companies, this is something 
that on an individual basis has to be tackled also. So just to 
let you know, your testimony here this morning has been very 
helpful. Let me--let me ask you a question: What--now, did your 
husbands work for BP or Transocean or Halliburton.
    Mrs. Roshto. Transocean.
    Mrs. Kemp. Transocean.
    Mr. Burgess. And since the accident, what have you heard 
from the company itself? Have they come to you and--and offered 
any type of assistance with--with pulling your lives back 
together.
    Mrs. Roshto. Actually, I sat across my kitchen table with 
the CEO and president of Transocean. He personally paid a visit 
to me, and I also had a lady from the company that has kept in 
close contact with me about anything to do with anything out 
there.
    Mr. Burgess. So are they giving you financial assistance at 
this point?
    Mrs. Roshto. Yes. I--we are still receiving his paycheck 
until otherwise.
    Mr. Burgess. I see. Same with you, Mrs. Kemp?
    Mrs. Kemp. Yes, sir. Again, the CEO of the company came to 
the House to express his personal condolences. Like Natalie, I 
also have a representative from Transocean who we keep in close 
contact and she and I speak regularly on a daily basis. And 
yes, we are still receiving their paychecks just as if they 
were out there working.
    Mr. Burgess. I see. So--so the ability to keep body and 
soul together right now while things are being sorted out, you 
have a cash flow that is--is available to you?
    Mrs. Roshto. Yes, sir.
    Mrs. Kemp. Yes.
    Mr. Burgess. And the reason I ask is because, you know, 
just preceding the--the Deepwater Horizon tragedy, there was 
another tragedy that occurred on land on April 5th in West 
Virginia.
    And, Mr. Chairman, I'll submit this for the record, but a 
newspaper article on the Upper Big Branch mine, each miner's 
spouse or beneficiary will collect life insurance benefits that 
are five times the miner's annual pay. A surviving spouse will 
be entitled to 20 years of health benefits dependant children 
will continue health benefits until the age 19 or age 24, child 
care benefits for children up to the age of 12.
    This company obviously got out in front of this issue. I'm 
glad to here that Transocean did. I actually don't know if any 
of BP's employees were--were killed in the accident and I'd be 
interested to know if they have been as forthcoming; but 
clearly, this is not--in my opinion, this is preventative 
medicine. This is taking care of a family that needs help who 
suffered a devastating loss.
    I'm glad to hear that Transocean has--has stepped up. I 
hope that it is every bit as reasonable as what the--the owners 
of the Upper Big Branch mine did because they clearly 
recognized they were facing a dreadful public relations 
problem, as is Transocean, as is BP, and honestly as is 
Halliburton.
    Did your husbands talk to you at all--both of you 
referenced the fact that when you saw your husbands they talked 
about things that were not right on the rig. I presume you've 
talked to the Coast Guard about this, but is there anything you 
can share with us about the stories your husbands were telling 
you during those last visits about concerns they had about 
safety on the rig?
    Mrs. Roshto. The last time Shane was home, the three weeks 
he was home, we had some pretty detailed conversations about 
some of the issues out there concerning the well.
    Mr. Burgess. Let me stop you for just a second. Is that 
normal coast side conversation that you and Shane would have 
had----
    Mrs. Roshto. We had----
    Mr. Burgess [continuing]. Or was he overly concerned about 
safety?
    Mrs. Roshto. No, no. We always talked about his work. I had 
an intense interest in his work because I did not work. Because 
I couldn't see it with my own two eyes, I had a lot of 
questions. And I mean the four and a half years he was out 
there, we talked 90 percent about his work and--because he was 
moving up and he was really interested in his job. But we had 
some previous conversations on some issues that they had out 
there.
    Main reason he had an issue was because he was working in 
the mud room, a lot of mud loss undoubtedly. I actually spoke 
with him at 1:30 the morning of the accident and he expressed 
some concern about some issues they were having, and I talked 
to him at 10:30 a.m. The morning of the accident and at that 
time he didn't really express any concern; but our 1:30 a.m. 
Conversation he had some concerns about some well issues that 
they were having, the mud loss.
    Mr. Burgess. Mrs. Kemp, just a little time I have left. Can 
you respond to that?
    Mrs. Kemp. Yes. My husband also stated that they had been 
losing mud. They had had problems with well control before and 
actually lost the well, lost a lot of tools and everything, 
several millions of dollars worth of equipment that had been 
lost. They were also receiving a lot of kicks from the well, a 
lot of gas pressure, and--and that had been going on throughout 
the duration of this well. Mr. Chairman?
    Mr. Stupak. Thank you. Mr. Braley for questions, please.
    Mr. Braley. Thank you. And Mrs. Roshto and Mrs. Kemp, I 
want to thank you for bringing us this problem with the Jones 
Act, otherwise known as the Death on the High Seas Act, because 
a lot of people don't appreciate what's going on out on those 
drilling platforms. They don't know that they are flagged 
vessels and that the Deepwater Horizon rig was flagged as a 
vessel in the Marshall Islands. Were you aware of that?
    Mrs. Kemp. No, I wasn't.
    Mr. Braley. And that because they are a flagged vessel, 
they are subject to the Jones Act limitations which are very 
restrictive. They don't provide any compensation for quality of 
life damages, for the loss, the emotional loss, that the two of 
you have for losing your husband, for the emotional loss that 
your children have, for the fact that your husband won't be 
there for their high school graduations or their weddings or 
those wonderful times that families get to celebrate.
    If this had happened on land under the laws of Louisiana 
and in almost every other state, your claims would have been 
significantly greater and different; because those quality of 
life damages are recognized but they are not under the federal 
law known as the Jones Act, and that's the concern both of you 
were expressing. Is that what you were sharing with the 
committee?
    Mrs. Roshto. Yes.
    Mrs. Kemp. Yes.
    Mr. Braley. Now, one of the things that we do know is that 
Transocean was involved in reaching out to families after this 
disaster occurred. And, Mrs. Roshto, you talked about being 
contacted, I think you said, 6:00 o'clock in the morning by 
phone call?
    Mrs. Roshto. Actually, my mother woke me up. She had gotten 
a phone call from a friend of a friend that was on another rig. 
I actually did not hear from Transocean until 11:22 that 
afternoon to ask if it was a good contact number, and then I 
again talked to them about 2:20 and they did not confirm that 
he was on the missing list until around 4:00 when I was already 
in Fourchon.
    Mr. Braley. Can you just tell us the extent of your contact 
with a representative from Transocean as you went through that 
difficult first period?
    Mrs. Roshto. You talking about the first day?
    Mr. Braley. Yes.
    Mrs. Roshto. The first day I spoke with them periodically 
every--pretty much every hour, but it was this--after 11:00 is 
when I spoke with them pretty much every hour, but it was never 
any new information.
    Like I said, I didn't actually find out he was on the 
missing list until around 4:00. My mom actually is the one that 
woke me up and told me. I had heard that there was some in 
different hospitals that had already--I actually contacted 
different hospitals that I had heard some were at.
    We made it down to Port Fourchon. We stayed down there and 
then that's when we found out the boat was supposed to be 
coming in, went to where the seaport where the boat was 
supposed to be coming in, and that's about the time that I 
found out he was on the missing list.
    Mr. Braley. And when you talk about the boat coming in, are 
you referring to----
    Mrs. Roshto. The crew boat that was carrying the men, the 
survivors.
    Mr. Braley. Bringing the survivors back to shore?
    Mrs. Roshto. Uh-huh.
    Mr. Braley. What were you told, if anything, about the 
circumstances that had led to this disaster?
    Mrs. Roshto. At that point at the seaport, I really didn't 
know much. I knew what I had watched at the 3:00 o'clock news 
conference on the TV. That was the extent. At 3:00 o'clock when 
I watched the news conference, that was the most news, the most 
information I had heard then. The only thing I knew up to that 
point was that there had been an explosion.
    Mr. Braley. When was the first time you had contact with 
anyone from Transocean that gave you some sense of explanation 
of what had happened to your husband?
    Mrs. Roshto. Never. Never.
    Mr. Braley. And to this day you've never received an 
explanation?
    Mrs. Roshto. No.
    Mrs. Kemp. No.
    Mr. Braley. And, Mrs. Kemp, I see you also responding. Tell 
us what your experience was like in dealing with Transocean.
    Mrs. Kemp. I received a call at approximately 4:30 on April 
21st. The lady told me that there had been an explosion on the 
Deepwater Horizon and an emergency evacuation was taking place 
and the Coast Guard was on the scene. I immediately jumped to 
my feet and said, ``Where's my husband?'' And she said, ``At 
this time, we don't know.'' And I said, ``Can you tell me 
anything about him, anything about the crew?'' ``No, ma'am. We 
don't have any information.'' I said, ``OK.'' I took her name, 
her phone number, and I said that I would be contacting you.
    I then about 6:00 o'clock that morning I called--Wyatt rode 
back and forth with Wyman Wheeler, and I called his home and 
Becky was already en route to New Orleans, his wife, to--he was 
one of the ones injured. And I asked, I said, ``Where is Wyatt? 
You know, what's going on?'' And she said, ``Wyman doesn't know 
where anybody is. I don't have a clue. When I get down there, 
I'll try to find out something for you and get back with you.''
    They, Transocean, set up a hotline. I started calling the 
hotline every hour on the hour; and when I did around 2:00 
o'clock, someone answered the hotline and told me that everyone 
had been accounted for and no fatalities were reported.
    Mr. Braley. That was 2:00 o'clock the first day?
    Mrs. Kemp. 2:00 o'clock the first day, April 21st. At 
approximately 2:30, my sheriff in our parish came to the House. 
He is a personal friend of ours. He came to the House and he 
told me, he said, ``Courtney, let's go in this room and I--I 
need you to call this lady.'' And so I did so, and that's when 
she informed me that Wyatt was one of the 11 missing. And to 
this day, we have never received any kind of explanation as to 
what happened. There's a lot of speculation, a lot of things 
you hear, but we have never gotten an explanation from 
Transocean, BP, anybody.
    Mr. Braley. Thank you.
    Mr. Stupak. Thank you, Mr. Braley. And, Mr. Markey, 
questions, please.
    Mr. Markey. Thank you, Mr. Chairman, very much. And thank 
you for your testimony. It's very important for us to hear how 
our laws and how they are implemented impacts ordinary 
families. So the first thing I would like to tell you is that 
your testimony is going to help to make it possible for us to 
repeal the Death on the High Seas Act so that we never again 
have a situation like this.
    We have thousands of thousands of people who are out on 
these rigs on the ocean and there never was any intention for 
you and people like you not to be able to recover for your 
families, so that has to be changed and your testimony is going 
to very profoundly help us to be able to accomplish that role.
    Now, you talked a little bit about the concerns which your 
husband had about mud control, about well control. Was he 
concerned about the shortcuts that BP was making in safety out 
on the rig, Mrs. Roshto?
    Mrs. Roshto. Shane never made any reference to BP as far as 
safety. The last time Shane was home, we actually--he actually 
went to a safety school that Transocean put on, and he highly 
spoke of Transocean and their safety.
    Now, there were statements made that there was times he 
felt that there was agendas put over safety, you know, business 
agendas to get the work done. The last--when I spoke with him 
the weeks before--the first week he was out there before the 
accident, there was talk about high pressure and how they were 
pushing on to get finished and, you know, they were over 
budgeting, they were over their time in the hole, and yet there 
was concerns but never anything pointed towards BP or 
Transocean.
    Mr. Markey. What would you say to BP about the impact that 
compromises safety they have upon families when something goes 
tragically wrong?
    Mrs. Roshto. Let's just remember that it's--it's all going 
to be OK in the end. You are going to get that oil out of that 
hole regardless of how long it takes. But there were 11 men 
that suffered, 11 families that suffered, and let's not place 
the importance of oil over the importance of a life.
    Mr. Markey. Thank you, Mrs. Roshto. What would you say to 
BP about the compromise of safety in pursuant of oil?
    Mrs. Kemp. Again, like Natalie, I--I don't see how--you 
know, people say money is the root of all evil and in this case 
it really was. BP, it's--it's plain to see that, of course, BP 
was in a hurry because they were over schedule and, of course, 
trying to hurry up and get off of that well and move onto the 
next one, so in a--in a way it's just the fact that life is way 
too precious and no amount of money will ever be sufficient of 
bringing your--your spouse back or your father back or anything 
like that. And, frankly, it's not that important as far as you 
are talking about a life.
    Mr. Markey. Well, one way that we can hurt BP is to make 
sure that--BP stands for bills paid--that the money for 
families, the money to clean up the Gulf comes out of their 
pocket and that we repeal the Death on the High Seas Act and we 
change the laws in order to make sure that the companies are 
more accountable when they harm not only lives but the 
livelihoods of people----
    Mrs. Kemp. I really----
    Mr. Markey [continuing]. That are dependent upon these 
companies.
    Mrs. Kemp. I'm sorry.
    Mr. Markey. No, please.
    Mrs. Kemp. I really believe that BP will never understand 
the pain that we feel. And the only way that big companies like 
that will feel the pain is when it comes out of their pocket 
because that's basically how we have felt is all they are 
worried about. And until they are hurt bad enough, they will 
never understand what we have gone through. And even if they 
are hurt bad enough, they still will never understand the pain 
we feel.
    Mr. Markey. Well, we are going to make sure that they feel 
the pain and the two of you will always be remembered as we go 
back to Washington.
    Mrs. Roshto. And if you can do that, this will serve 
justice to all other men. If you can do that, this will make 
all the pain--I can speak for Courtney too--and all the 
suffering's worth every bit of this just to see something 
change out there.
    Mr. Markey. Thank you. Thank you for being here.
    Mr. Stupak. Ms. DeGette, questions, please.
    Ms. DeGette. Thank you, Mr. Chairman. Mrs. Roshto, you 
talked in your testimony today and also in your written 
testimony about the safety schools, meetings, fire drills, and 
safety regulations that your husband, Shane, went through. Did 
you feel like he was really thoroughly trained about emergency 
procedures on the rig, what would happen?
    Mrs. Roshto. Yes and no. Every Sunday, especially the last 
Sunday before he would come home on Wednesday, he would always 
say, ``Last safety--I mean last fire drill, baby. I got to 
go.'' They practiced, practiced, practiced, practiced 
evacuation drills and that kind of stuff. But throughout all 
this, I've learned that and also knew that at 10:00 o'clock 
every Sunday it was at the same time every Sunday, same place. 
If there can be something different done as far as maybe under 
different conditions or different ways of going about it each 
time, you can practice, practice and you can do it; but when it 
really comes down to it like it did the night of April 20th, it 
all goes out a wash. And in an incident like that, if there 
could be something done different to make them in different 
situations.
    Ms. DeGette. So they were training to do one thing but 
maybe not respond to a situation like this?
    Mrs. Roshto. Right. Correct.
    Ms. DeGette. Mrs. Kemp, what about your husband, Wyatt?
    Mrs. Kemp. Yes. Yes and no. They were--they were trained.
    They were--they were made to do things and--and go through 
different trainings and all of that, and all of that was great. 
And then Wyatt would say, ``You know, some helped, some 
didn't.'' But--but at--at this catastrophe, the magnitude of 
this accident, it--from what--when we talked to some of the 
crew members and everything, all of their safety plans, all of 
their, you know, fire safety drills, all that went out the 
window. They were not--they were not expecting something of 
this magnitude to happen.
    Ms. DeGette. Right.
    Mrs. Kemp. You are talking about a blast that--that threw 
the--the axes off the window, broke them in half. There was 
things there that they couldn't do anything to help the other 
people and because they were not expecting a blast like this.
    Ms. DeGette. Right. One of things that we--so--so the 
answer--and--and Mrs. Roshto said this in her testimony: It's 
not more training, it's better training and more focused 
training.
    Mrs. Roshto. Right.
    Mrs. Kemp. Right.
    Ms. DeGette. One of the things we have seen in the news 
accounts is a criticism that there wasn't any real chain of 
command, that there was this pressure both of you talked about. 
There was this pressure to get things done. And a lot of people 
had concerns: The mud concerns, the gas build up, the hurry up. 
And we have seen that from you and other people, but what they 
are saying is that no one was really sure exactly who they 
could go to and talk to about those concerns and get those 
concerns addressed.
    Did your husbands talk to you about that, Mrs. Roshto, 
about a lack of a place--of a sort of a system in place to 
address that?
    Mrs. Roshto. Shane was fully aware of the chain of command 
and who--if he had a problem, who to go to. Now, from the 
testimonies and different things I've heard from that night, 
there was a mix up or, you know, who should have been in 
command, who should have made what call. I think that should be 
addressed because it is a dynamically positioned rig and you do 
have a line up and you do have a captain. There needs to be a 
fine definition of who is in charge, who makes what call in 
what situation.
    Ms. DeGette. Mrs. Kemp, do you have any thoughts on that?
    Mrs. Kemp. I agree with Natalie's statement in that, you 
know, my husband knew who to go to personally, but in something 
this horrific it, like I said, all went out the window.
    Ms. DeGette. Do you know if your husband felt like he could 
go to people and talk about this gas build up that you 
mentioned and how that was addressed, or was it just sort of a 
fact that he was reporting?
    Mrs. Kemp. It was more of a fact that he was reporting. I 
know--I feel certain that he and Wyman talked about it, Wyman 
Wheeler, because they were travel partners. Wyman is also a 
toolpusher. So as--as far as the chain of command goes, he is 
above Wyatt, so I'm sure that they spoke about it and 
everything, but to what extent, I'm not sure.
    Ms. DeGette. You know, this is one of the things we are 
hearing about.
    Mrs. Kemp. Yes.
    Ms. DeGette. Everybody knew about these problems, but 
nobody--but there was a chain of command but nobody felt nobody 
could--could stop it or slow it down or--you know what I'm 
saying? They knew there were problems, but they were just sort 
of going to go along and do their job.
    Mrs. Roshto. I know about smaller issues the men could 
report and not feel that there was any way of losing their job 
because in 2008--no. Yes. 2008 my husband received an award for 
spotting a dropped object, but that was within Transocean. That 
was not within BP. So I think within the company, Transocean, 
and the men on his rig, Shane always felt like if there was an 
issue that he could express it to his Transocean fellow co-
workers. But never once did he ever make a statement to--to me 
about feeling comfortable about speaking with BP or, you know, 
if he did see a concern with Transocean, would they ever follow 
up with BP.
    Ms. DeGette. Thank you, Mr. Chairman. Can Mrs. Kemp answer 
real quickly?
    Mr. Stupak. Yes.
    Mrs. Kemp. Also, with my husband, you know, BP company men 
are--they are the ones that call the shots. It's their well. 
But as far as with the rig and everything with Transocean, my 
husband was willing and able and--and could go speak to a 
Transocean member. But as far as with BP, it was not like that 
because they called the shots.
    Ms. DeGette. Thank you.
    Mr. Stupak. Thank you. Ms. Schakowsky for questions, 
please.
    Ms. Schakowsky. Thank you so much. Let me follow up on 
that. There was talk about pressure because it was--the project 
was being rushed to be finished. Did that pressure come from BP 
to Transocean or was that just internally Transocean? In other 
words, did the Transocean employees feel like they were being 
pressured by BP to complete the job? Do you have any sense of 
that?
    Mrs. Kemp. Not really sense of it, but I believe, you know, 
that that was the extent. BP was, you know, in a crunch and 
they were behind on the well and everything and they had fallen 
behind schedule, so I think--I know speaking for Wyatt that he 
was pressured in trying to hurry up and get things done.
    Ms. Schakowsky. And that pressure would have come from 
his--from his bosses, but he felt that it was really BP that 
pressured Transocean to get it done? I'm trying to understand 
who might have short circuited a little bit and what the cause 
of that would have been in terms of safety.
    Mrs. Roshto. I think it was a trickle effect.
    Ms. Schakowsky. I can't hear you.
    Mrs. Roshto. I think it was a trickle effect.
    Ms. Schakowsky. I see.
    Mrs. Roshto. I mean it came from the well holders and 
then--I mean Transocean knew that they were their well holders 
and that was their contract. That's how they paid their men on 
that rig. I think it was a trickle effect.
    Ms. Schakowsky. Was any of the slow down--it was a 
difficult well, I think both of you have mentioned, but was any 
of the slow down particularly identified as things that would 
effect safety?
    Mrs. Roshto. They were losing tools in the hole and had to 
go back and drill a side drill because they had lost the hole. 
I mean this is--we're talking about the same hole that inside 
they were--they abandoned for the same issues but yet they put 
the Deepwater Horizon rig over this hole and were still having 
problems in the first two weeks that they got over this hole. 
They lost the well and had to drill a relief well beside it.
    Ms. Schakowsky. All right. Has Transocean ever made any 
statements to you or assurances about financial compensation 
that your families would be all right? You said that they are 
right now paying salaries, but do they ever--ever really talk 
to you about the future?
    Mrs. Kemp. They have come to me and made a settlement 
offer, but it's not enough.
    Ms. Schakowsky. OK.
    Mrs. Roshto. We spoke, but nothing of a serious nature.
    Ms. Schakowsky. And what about BP, what kind of contact 
have you had with British Petroleum since the incident, 
letters, phone calls, visits?
    Mrs. Roshto. Two BP men attended Shane's services and 
they--they never extended a hand, a hug, never extended a 
``we're sorry,'' their condolences. The only words that came 
out of their mouth was where they were to be seated and I never 
saw them after that.
    Ms. Schakowsky. They said--they asked you that? They came 
right up to you and asked that?
    Mrs. Roshto. That--I met them. We were greeting at the door 
at Shane's services, and I never saw them after that and I have 
not spoke with one.
    Ms. Schakowsky. And what about you, Mrs. Kemp?
    Mrs. Kemp. Two BP--two BP men came to Wyatt's services and 
one extended his hand. I shook it. He told me that he was sorry 
for my loss. He asked if he could hug me. He did. The other 
gentleman extended his hand, told me who he was, and they sent 
two plants to the services; and that is the extent of my 
conversation or any dealings with BP.
    Ms. Schakowsky. Did they identify themselves as to--I'm not 
looking for names but as to how high up they were in the 
company in any way?
    Mrs. Roshto. No, ma'am.
    Mrs. Kemp. No, ma'am.
    Ms. Schakowsky. Was there ever any indication from either 
of your husbands that there was a tension with--between 
Transocean and BP, that different instructions somehow were--
were coming down, that there was any feeling that BP wasn't 
doing what it should do; was there ever any of that?
    Mrs. Kemp. My husband never spoke of stuff like that.
    Mrs. Roshto. No.
    Ms. Schakowsky. So aside from your--both of your feelings 
that we should repeal the--what's it called?
    Mrs. Roshto. Death on the High Seas Act.
    Mrs. Kemp. Death on the High Seas Act.
    Ms. Schakowsky. You feel like--it sounds like you don't 
think there needs to be new legislation but rather enforcement; 
is--is that right? Is there anything else that you would think 
we ought to do in order to prevent this in the future?
    Mrs. Kemp. I think that there are plenty of safety 
regulations in place. It's just the mere fact of them being 
enforced and not being neglected and having some accountability 
for when they are neglected.
    Mrs. Roshto. I--I fully agree with Courtney. I think that 
there should somehow be a way to make these companies have to 
be looked at by maybe a third party to come in and investigate, 
maybe say this safety rule's good. You have this back up plan, 
but let's revise this back up plan. Because if they are 
regulating theirselves, how do we know if they are doing it the 
right way or the wrong way. Undoubtedly, it was the wrong way 
in this situation.
    Ms. Schakowsky. Thank you very much.
    Mr. Stupak. Thank you. Ms. Christensen for questions, 
please.
    Mrs. Christensen. Thank you. I know many questions have 
been asked but, again, thank you for being here. Mrs. Kemp, I 
understand that your husband, Wyatt, worked with Transocean for 
four years prior to the explosion. And we know that he was a 
hard working individual and he had recently been promoted to 
assistant driller. Did he work on the Deepwater Horizon for all 
of those four years.
    Mrs. Kemp. Yes, ma'am. Actually, he worked a little more 
than four years. It was approximately four and a half, five 
years and he had only worked on the Deepwater Horizon.
    Mrs. Christensen. OK. Because my question is going to be 
then, and how would he have compared that to other sites? So I 
guess----
    Mrs. Kemp. He had worked on a land rig but not in the Gulf.
    Mrs. Christensen. OK. And, Mrs. Roshto, your husband also 
was a very hard worker, was training to work at the subsea 
level. He had worked also for four years----
    Mrs. Roshto. Yes, ma'am.
    Mrs. Christensen [continuing]. With Transocean? Did--both 
of you had testified that your husbands spoke to you about the 
difficulties, the mud leaking, and the loss of equipment, and 
so forth. Did Shane work on any other projects that he would be 
able to have compared?
    Mrs. Roshto. No, he didn't. But the day he got hired, he 
got the phone call from Transocean and he called the guy that 
actually got him hired. The guy told him--he also worked for 
Transocean. He said, ``If there is any rig that you want to be 
on, it's the Deepwater Horizon.'' He said that is by far the 
safest rig in the Gulf.
    Mrs. Christensen. Well, did any of them--I'm trying to get 
a sense of--the purpose of my question was to try to get a 
sense of the difficulties that were being experienced in this 
operation was different from others.
    In their maybe discussions with other workers in this deep 
water operation, did you ever get a sense that the difficulties 
that they were experiencing were different or greater than 
might have happened, might have been experienced by their co-
workers who worked on other rigs?
    Mrs. Kemp. Wyatt would always--Wyatt just told me that, you 
know, it was--it was typical to--to get some kicks from a well 
and to have some problems, but it was their job to deal with 
the problems, fix them, and go on with it. This well was 
different in the fact that they were having so many problems 
and so many things were happening and it was just kind of out 
of hand.
    Mrs. Christensen. And that was your sense also, Mrs. 
Roshto.
    Mrs. Roshto. The numerous kickbacks that they were having 
and the loss of the well is what really concerned Shane, and 
the loss of the mud because he had never worked in it before. 
That was his three main concerns, you know, that we talked 
about a lot.
    Mrs. Christensen. OK. Well, although a lot of information 
is being uncovered, there is still a lot that we don't know; 
but I think you can walk away from this hearing with assurance 
that this subcommittee, as it does in every instance, will not 
let up until all the questions are answered and we know what 
happened and who's responsible.
    Again, thank you for being here and honoring the lives of 
your husbands with your testimony. I yield back.
    Mr. Stupak. Thank you. Mr. Melancon, questions, please.
    Mr. Melancon. Thank you, Mr. Chairman. On a bright note, 
I've spent many a hunting season in Liberty, Mississippi, about 
six miles north of McComb Highway when I was in college and 
several years after. So if Shane was a hunter and fisherman, 
and if Wyatt was too, I understand. And Jonesville is a good 
hunting area and fishing area, so I--they are probably guys I 
would have had a lot to talk about with.
    The Death on the High Seas thing bothers me tremendously. 
And just so you will know, I will support and work to try and 
make sure that we repeal and reform that section of law. It's 
egregious that there is no recourse other than, I think, the 
only obligation that the company has is to reimburse you for 
the funeral. I think that's it. I may be wrong. So that's--
that's very disheartening. It's--in these days and times, even 
back in those days and times, it probably shouldn't have been.
    Did Transocean advise either of you how long they intended 
to continue giving you your husband's checks and are they going 
to continue health benefits or----
    Mrs. Roshto. I know until the life insurance is issued, we 
will receive his paycheck; but now as far as health insurance, 
no, we have not spoke on that matter.
    Mrs. Kemp. We have touched on the health insurance part, 
and it is my understanding until a settlement is reached we 
will be compensated with health insurance. And up to a year 
after the settlement, we can receive health insurance but we 
have to pay for it at the company rate; and then after that 
year we are on our own.
    Mr. Melancon. Now, the life insurance, is that a company 
benefit or is this life insurance that your husbands and you-
all purchased.
    Mrs. Roshto. It's a company benefit.
    Mrs. Kemp. It's a company benefit.
    Mr. Melancon. Is it adequate to maintain your family for--I 
mean we don't know how long that might be--the rest of your 
life?
    Mrs. Roshto. I would say so because last year when the 
Deepwater Horizon started taking water and they had a problem 
or whatever, Shane came home and said that he realized that he 
was working in a very dangerous atmosphere and it just really 
opened his eyes up. And we actually purchased some----
    Mr. Melancon. Purchased some.
    Mrs. Roshto. Not purchased, but through the company we took 
out some extra insurance plans because he said he wanted----
    Mr. Melancon. But you still had to pay for those yourself.
    Mrs. Roshto. No. They came out of his check and things like 
that, but it was at the company's expense. But now, regularly, 
if you just take what the company offers and don't take an 
extra plan, I wouldn't say that it's compensatable. Would you?
    Mrs. Kemp. No. And we just--we took what--the company plan.
    Mr. Melancon. There has been--I have heard, don't know if 
it's fact or not and I don't know if either of your husbands 
had a conversation, but as I understand it, Schlumberger was on 
the rig prior to the explosion and about 11 hours out said they 
were getting off the rig. Did either of your husbands have a 
conversation with you about that or----
    Mrs. Kemp. My husband did not, but I am aware of 
Schlumberger being out there.
    Mr. Melancon. And saying that they felt it was an unsafe 
condition and----
    Mrs. Kemp. Yes, sir. My father is close friends with 
someone who works for Schlumberger and he told my dad.
    Mr. Melancon. I mean would you think that your husbands--of 
course, they can say to the Transocean people if they are 
getting off, then maybe there's a problem and we ought to be--
--
    Mrs. Roshto. Yes. Let's--let's follow in behind.
    Mr. Melancon. Yes. I mean they should have been putting 
them on the same crew boat or the same helicopter if, in fact, 
that was, and maybe leave a skeleton crew to try and cement in 
the hole or whatever the procedure would be there. Did--did 
either one of them--did--when you talked did you-all talk to 
them that afternoon in that period of time that they may have 
said something about Schlumberger pulling off?
    Mrs. Kemp. My husband never talked to me about 
Schlumberger. I work in a dangerous job as well and he didn't 
want--I don't think he wanted to bother me about----
    Mr. Melancon. Didn't want you worried.
    Mrs. Kemp. Sorry?
    Mr. Melancon. He didn't want you worried.
    Mrs. Kemp. Right.
    Mr. Melancon. And what do you do.
    Mrs. Kemp. I'm an investigator for child protection.
    Mr. Melancon. OK. Sheriff's office or DA's office.
    Mrs. Kemp. No, sir, with the Department of Social Services.
    Mr. Melancon. OK. Yes you can get in some hairy situations. 
The--one of the things that I want to say to the committee, 
this lady's from Mississippi. This lady's from north Louisiana. 
I think if we look at the residencies of the people on the rig, 
we've probably got Mississippi, Arkansas, Alabama, Tennessee, 
you name it.
    Mrs. Roshto. They are everywhere.
    Mr. Melancon. They are from everywhere. So this is one rig 
and all of them lack that that touch families from throughout 
the south as best I can tell.
    I support drilling. I'm just hoping that we can find 
something between shutting down and drill baby drill to give us 
the balance to maintain the community to provide the good jobs; 
but at the same time, we need to make sure this never happens 
to anyone again and safety should be our first priority. And 
the committee, I thank the chairman and the ranking member. 
That's where I will work to try and make sure that when you go 
to work the expectation is that you will be coming back from 
work.
    Mrs. Roshto. Right.
    Mr. Melancon. So thank you all for coming.
    Mrs. Roshto. Thank you.
    Mrs. Kemp. Thank you.
    Mr. Stupak. Thank you, Mr. Melancon. Mr. Scalise for 
questions, please. Five minutes.
    Mr. Scalise. Thank you, Mr. Chairman. You both talked about 
the safety regulations and, you know, I guess whether there 
should be more regulations or just follow the existing. And I 
think both Mrs. Roshto and Mrs. Kemp both said that maybe it's 
more of a case that the existing safety regulations weren't 
followed more than--more than we need more.
    Can you both touch on were there things that you saw and 
conversations you had with your husbands about safety 
regulations that weren't followed or how the regulations 
weren't being properly administered by the federal regulator? 
What things did you see to make you feel that way?
    Mrs. Kemp. I didn't speak to my husband about safety 
regulations particularly on this well, but I didn't learn about 
all of the shortcuts and everything that was taking place until 
after the explosion.
    Mr. Scalise. In conversations with some of the other 
families?
    Mrs. Kemp. Correct. With conversations with some of the 
other crew members and just things that have come out in the 
media and everything.
    Mr. Scalise. Mrs. Roshto.
    Mrs. Roshto. Looking back on Shane and I's past 
conversations the weeks leading up to the accident when he was 
on the rig, I never thought about it when we were talking about 
it. I never thought about the--I guess really the problems that 
they were having and what--how it could end up. But when I 
found out and as I had conversations with the crew members and 
I thought about what he said, it really made me realize that 
there was a problem and he saw it. He knew that there was a 
problem.
    Now, as far as safety on this particular rig, he never 
specifically pinpointed a safety issue that they had, but he 
did make reference to safety, you know, that was in practice. 
He was always very prideful about Transocean and how they 
practiced safety, but never--it was always Transocean practiced 
safety, never BP practiced safety.
    But he always was very prideful in Transocean practicing 
safety; but at the same time, though, there were downfalls to 
their safety, different ways they went about doing safety 
things and tank cards and permits they had to get. There were 
issues with that, not necessarily just on this well, but on his 
time on the Deepwater Horizon.
    Mr. Scalise. We have heard some stories, mostly secondhand 
accounts, that there may have been some--some pretty strong 
disagreements between some of the Transocean people on the rig 
and BP, especially about the displacement of the mud when they 
brought in water and during the sealing period and maybe there 
was a disagreement in which procedure to use.
    We had a hearing with Transocean and BP, and--and they said 
there wasn't a disagreement, but we are hearing that there were 
employees--and I don't know if you-all have heard that, but 
there was some pretty strong disagreements over the process 
that was used to displace the mud with water. I don't know if 
you've heard anything about that.
    Mrs. Kemp. I've heard that from some of the crew members 
who--one in particular that walked in and they were--BP and 
Transocean were going back and forth on what was supposed to 
take place that day and--and about the displacement of the mud 
with sea water, and I--I think it was a--kind of a heated 
conversation.
    Mrs. Roshto. That's the same thing I heard.
    Mr. Scalise. Did you-all ever hear--did your husbands ever 
share stories of the MMS, who is the federal regulator, coming 
onto the rig and doing inspections? Was it all--did they just 
kind of cede that responsibility to the companies to do their 
own inspections or do you know?
    Mrs. Roshto. I've learned more about MMS in the past weeks 
than I ever knew about them.
    Mr. Scalise. Because there's some talk of--one of the 
answers is splitting them up. And it seems like if you have got 
an agency of over 1,700 people, whether it's one agency or 
three, if one agency wasn't doing its job, having three 
agencies not doing its job doesn't seem to accomplish anything. 
But I don't know if you-all had heard anything about that 
because that's something else that we'll be looking at.
    And I think from some of the things you said earlier it 
sounds more like a case of just doing your job right as opposed 
to not doing the proper inspections. I think whether you're for 
big government or small government, I think we should all be 
able to expect competent government, and I don't know if we got 
that here.
    And so that's something else we've got to look into on our 
side to make sure that for other families, as you talk about, 
that they don't have to worry about things like that in the 
future.
    One last thing, you both talked about what the industry 
means to your lives and, you know, what it meant to your 
families and, you know, how much your husbands, the pride that 
they had. I know it's being talked about. We're going to deal 
with it in terms of policy possibly of this--this potential 
shutdown, a ban, that in essence, would run all of these rigs 
off for maybe three to five years or more because if you lose 
that infrastructure. Can you-all share just what the industry 
means in terms of what it meant to your families and your 
husbands working?
    Mrs. Roshto. What it meant to my family was being able to 
put a roof over my child's head. I attended college. I had 
every intention of--I was actually supposed to graduate May the 
13th. I had taken an incomplete because of the incident. I 
had--Shane had every full intention of putting me through 
school to get my masters. And what it--what it meant to us was 
a way to provide for our child, a way to provide a life-style 
that most 21 and 22 year old people cannot provide for their 
child; because everyone knows sitting in this room that 
offshore you make more money than you do on land. It's just a 
fact of it.
    But at the same time, though, it meant being able to come 
home and spend three weeks every day with his family. Most 
people don't get but the weekends, whereas our husbands 
received three weeks of--with us ever single day doing what we 
wanted.
    Mr. Scalise. Mrs. Kemp.
    Mrs. Kemp. Back in--in my town and my part of Louisiana, 
you--you can walk down the street and you can ask somebody what 
do you do for a living. 75 percent to 80 percent of them will 
say they work offshore or they know somebody that works 
offshore or they know somebody that works for Transocean.
    The oil field industry is--is a very, very large industry 
in our state and with the coastal states, especially in my 
hometown. And like Natalie said, it's--it's one that my husband 
could go out there, make good money, and be at home with me and 
the girls, and--and give us his--his devoted time.
    Now, you know, Mr. Melancon talked about hunting and I had 
to share that with my husband because he enjoyed his fair share 
of hunting, but--but that was definitely--definitely one thing 
that he enjoyed was the time at home with his family, that he 
didn't have to worry about the rig or he didn't have to worry 
about work, and one thing that--that we all really enjoyed.
    Mr. Scalise. Thank you, Mr. Chairman, and thank both of 
you. As a father of a three year old and a one year old, I 
can't imagine, you know, what it's like, but I can just say I 
appreciate the strength that both of you are exhibiting. If 
there's anything my office can do to help you along the way, 
but thank you so much for your testimony.
    Mr. Stupak. We'd like to thank you again for your 
testimony. Let me just ask you for your counsel. You both 
indicated you had counsel. We know Transocean's asked for a $17 
million cap.
    We would like your counsel just to explain to us how the 
Jones Acts, whether that would be part of it and affect it 
because you certainly raise the awareness of the committee on 
that issue. And I think we would like a full explanation as we 
move forward to try to amend that act, at least to try to 
assist here.
    So if your attorneys would, your counsel would give us some 
insight on that, especially with that cap sitting out there, we 
would like to know more about it and we would use it to 
supplement the records since there's been many questions from 
members on that particular act.
    OK. Thank you. We will dismiss you and thank you again for 
your courage, for your testimony, and feel free to stay if you 
would like for the rest of the hearing. Thank you both.
    Mrs. Roshto. Thank you.
    Mr. Stupak. I'd now like to call up our second panel of 
witnesses. On our second panel we have Ms. Wilma Subra, who is 
a chemist that provides technical assistance to the Louisiana 
Environmental Action Network. She has extensive knowledge on 
the human health and environmental effects associated with the 
spill; Mr. Ronnie Duplessis, who is an oyster and shrimp 
fisherman from Davant, Louisiana. Ronnie's shrimping grounds 
and oyster beds have been closed putting him out of work; Mr. 
Kelby Linn, who is president of ACP Real Estate, a beach front 
property sale and rental agency on Dauphin Island, Alabama; and 
Dr. Moby Solangi, who is founder, president, and executive 
director of the Institute for Marine Mammal Studies in 
Gulfport, Mississippi. Dr. Solangi has studied and written on 
the effects of Louisiana crude oil on fisheries.
    As with the last panel, it is the policy of this 
subcommittee to take all testimony under oath. Please be 
advised that you have the right under the rules of the House to 
be advised by counsel during your testimony. Do any of you wish 
to be represented by counsel? Everybody's shaking their heads 
no, so great. And let me ask you to please rise, raise your 
right hand, and take the oath.
    [Witnesses sworn.]
    Mr. Stupak. Let the record reflect the witnesses have 
replied in the affirmative. They are now under oath. We will 
now hear an opening statement from our witnesses. We ask you to 
keep it to five minutes. You may submit a longer statement for 
our record or to supplement our record at a later time.
    Mr. Linn, if you don't mind, we'll start with you, if 
that's all right.

 STATEMENTS OF KELBY LINN, OWNER, ACP REAL ESTATE, INC., VICE 
    PRESIDENT, DAUPHIN ISLAND CHAMBER OF COMMERCE; CLARENCE 
   DUPLESSIS, OYSTERMAN; MOBY SOLANGI, PH.D., PRESIDENT AND 
  EXECUTIVE DIRECTOR, INSTITUTE OF MAMMAL SERVICES; AND WILMA 
                SUBRA, PRESIDENT, SUBRA COMPANY

                    STATEMENT OF KELBY LINN

    Mr. Linn. That's fine.
    Mr. Stupak. I'm going to ask you to pull that mic over and 
speak into the mic and we will be ready to go. Begin, sir. 
Thank you.
    Mr. Linn. I want to first thank the--the ladies for their 
testimony. We are here to talk about in my case, you know, the 
impact on businesses, environment, but nothing can equal the 
impact that--that they have, so our condolences.
    My name is Kelby Linn. I'm vice-president of the chamber of 
commerce. I'm also an owner of a real estate and property 
management company on Dauphin Island, Alabama. We are a small 
island that depends totally on tourism, charter fishing, that 
type of thing. It's sand beaches. The environment is probably 
our biggest draw.
    Once the news hit the press, we got ourselves into a 
situation where about seven days later all of our 
cancellations, our reservations started occurring. We have a 
hundred and ten vacation rental properties that we manage for 
other owners on the island. We are one of the larger employers 
on the island; and as our business goes, so goes so many of the 
others such as your T-shirt shops, your--your restaurants, the 
small things.
    There is not a traffic light on the island, for example. 
There's five or six independent restaurants. We don't have a 
franchise, so it's all pretty much family geared and our 
tourism is pretty much family based.
    We have come into this season with the best year that we 
have experienced since, I think, a lot of you folks were here 
from Hurricane Ivan and Hurricane Katrina, so I won't go into 
the hurricane history that everybody around here knows all too 
well. But we--we were coming in--literally year-to-date this 
year we were 33 percent over last year.
    Most of us were coming in with the first year in the black 
that we had seen since 2005.
    That being stated, within the four weeks or five weeks, we 
lost over 175 reservations and dropped from almost an 80 
percent future occupancy rate down to approximately a 30 
percent future occupancy rate.
    The businesses that--that we have around us, it has all 
been in preparation. The government has responded pretty 
strongly. Governor Riley in the last two or three weeks has 
really stepped up and has started helping us a lot. BP's part 
of this whole thing is--the preparation on Dauphin Island has 
actually been pretty strong.
    We have a lot of preventative measures that have been put 
in place; we have protective sand barriers that were built; we 
had the National Guard come in and put containment systems 
along the water's edge on the north side of the island; we have 
several berms or actually booms that have been put in all the 
way around. There's been more preparation in actual need of the 
work in the beginning.
    Now, last week, week and a half is when we first had our 
first tar balls hit and now we are into tar patties and now we 
are into the connections of those, which is making a bigger and 
bigger spill.
    We have not seen the devastation in the marshes that they 
are seeing here. We are primarily more of a sand beach. We do 
have our estuaries. We do have our--our oystering and things 
that are around us, but it has not impacted quite yet here or 
there like it is here. It's coming. We all know it. We now know 
it's at Pensacola Beach. We know the sheen is within a mile of 
offshore.
    There has been significant odor at times depending on the 
wind. The quality of life has, not only for those that live on 
the island such as myself, but for anyone who would want to 
come visit, has definitely deteriorated substantially. There's 
no end to this, and I guess the next step I have to come to is 
what is BP doing for us to help us get through this.
    The claims process has been cumbersome. There are been--
there have been tremendous amounts of $5,000 checks that have 
been just given out to the individuals, fishermen, the 
oystermen, all deserving. When it comes to the small business 
side to anyone who has more of a P&L impact or a business 
approach to things, we have seen nothing in terms of any claim 
response so far.
    In our case, we ended up finally deciding to go with a 
local attorney to help us through that because I'm still trying 
to keep the business together and must focus on it. I hated to 
do that, but I feel that the claims process is not helping us 
in any way whatsoever and it's going to take that type of 
clout.
    The suggestions that I have I--I would hope would come out 
some more in the questions and answers rather than go into--
into here in terms of helping us. We do feel a little bit like 
the ant fighting the elephant at this point in time with the 
individual businesses on Dauphin Island. Thank you.
    [The statement of Mr. Linn follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Stupak. Thank you. Mr. 
Duplessis, you may want to pull that up there a little bit, 
please.

           STATEMENT OF CLARENCE DUPLESSIS, OYSTERMAN

    Mr. Duplessis. Yes. First, I want to also express my 
condolences to the two very, very strong young ladies that 
spoke earlier. Thank you, Mr. Chairman, and members of the 
committee on energy and commerce for allowing me to tell how 
this tragic loss spill has effected me and my family. The worst 
part of this tragedy for me has been the unknown.
    A brief note about myself. My name is Clarence Duplessis. I 
was born in a small fishing community named Davant just north 
of Point a La Hache, Louisiana in 1945. My family settled in 
Plaquemines Parish six generations before me. After high 
school, I joined the United States Marine Corp and served a 
tour of duty in Vietnam.
    While in the military, I met my beautiful wife, Bonnie, who 
was in the Navy. After the military, I worked here in Chalmette 
for Kaiser Aluminum. I was laid off in 1989 after the plant was 
shut down. After that, I went to full-time commercial fishing.
    In 2005, my wife and I lost everything we owned to 
Hurricane Katrina, then just a few weeks ago we were faced with 
the Deepwater Horizon oil spill. This one was the worst of all 
these stressful and economic tragedies.
    Now, before the critics lower their heads and say no way, 
I'll explain. During my tour in Vietnam, I was faced with an 
enemy that wanted to kill me. This was a problem with a 
solution: Kill them first, survive for 13 months, and the 
problem was solved.
    When Kaiser Aluminum shut down, I had a young family to 
feed, clothe, and educate. This also was a problem with a 
solution. I had experience with fishing, oysters, and also 
shrimping. I had saltwater in my veins from birth. I went 
fishing and my children paid their college tuition by working 
as deckhands on boats, and I might mention they loved every 
minute of it.
    In 2005 Hurricane Katrina hit us with a crippling blow, a 
major problem. Even then, though the entire region was wiped 
out and the insurance companies packed their bags and left us, 
there was still a solution. And just in case there is anyone 
here who has not yet noticed, the people of south Louisiana and 
the fishing communities of south Louisiana are some--some of 
the hardest working, most defiant, yet kindest people on God's 
earth. After the storm, we faced a difficult task of 
rebuilding, but that was the solution.
    Now, five years later we are facing the Deepwater Horizon 
oil spill. This is the worst of our problems because there are 
no answers, no solutions, only questions. As we watch our 
livelihoods and even an entire culture being washed away by 
crude oil and chemicals that no one knows the long term effects 
of, we ask will we have the mortgage payment next month? Will 
we be able to go to bed tonight instead of falling asleep in 
front of the TV hoping for some good news? What if they don't 
stop the leak? How long will this last? Will I be able to go 
oystering next year or ever again? How long will it take the 
fisheries to recovery? Will BP come around with the much needed 
monies they promised? Will BP do the right thing or will they 
also pack their bags and leave us like the insurance companies 
did? What can I do to survive? What if we get a tropical storm 
or hurricane in the Gulf? How can I get a loan when the SBA 
still holds the mortgages on all my property from Katrina? I 
have a thousand questions and no answers. I hope now you can 
understand why this is the worst tragedy of my lifetime.
    I thank you for your time and may God bless you all.
    [The statement of Mr. Duplessis follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  Mr. Stupak. Thank you. Dr. 
Solangi, your testimony, please, sir.

                   STATEMENT OF MOBY SOLANGI

    Mr. Solangi. I thank the committee to invite me to testify. 
And, again, my condolences to the young ladies, Mrs. Roshto and 
Mrs. Kemp. This is certainly a tremendous tragedy.
    My name is Moby Solangi. I received my Ph.D. in Marine 
Biology in 1980 from the University of Southern Mississippi, 
and little did I know that the subject of my research which was 
the effect of south Louisiana crude oil on benthic and pelagic 
fishes would come in handy.
    Research focused on the pathological changes of organs of 
these fishes exposed to both whole crude oil and its water-
soluble fractions and the potential recovery once these 
toxicants were removed. For the past 30 years I worked with 
marine mammals, specifically dolphins and sea turtles in the 
region.
    The waters of the Mississippi, Chandeleur, Breton Sounds 
and the adjacent waters of the northern Gulf of Mexico are home 
to one of the largest dolphin populations in the United States. 
The Sounds are also inhabited by several other endangered, 
threatened, and protected wildlife species.
    Dolphins are an important part of the ecosystem, and being 
on top of the food chain, are a good biological indicator of 
the health of the environment they inhabit.
    They are constantly impacted by a variety of both natural 
and anthropogenic factors. In the aftermath of the Horizon oil 
spill, it is now even more necessary and important to study the 
potential changes that may occur in both the dolphins and their 
habitat as a result of the oil spill.
    The Institute for Marine Mammal Studies was established in 
1984 as a non-profit 501(c)(3) organization dedicated to 
education, conservation, research on marine mammals and their 
environment in the wild and in captivity. It serves as a 
liaison between public and private entities interested in 
marine mammal science. The subjects of research have covered a 
broad range of scientific disciplines including population 
dynamics, underwater acoustics, health, genetics, microbiology, 
endocrinology, behavior, biomagnetism and ecology. The 
institute has conducted studies in cooperation with scientists 
from the University of Southern Mississippi, Mississippi State, 
Jackson State, Oklahoma State, Portland State, University of 
Miami, University of California Berkeley, National Marine 
Fisheries Service, Naval Oceans Systems Center, Louisiana 
State, and the Naval Research Laboratory.
    The institute is the only organization in the Gulf Coast 
states of Mississippi and Alabama with the capability and 
expertise to care for sick and injured marine mammals while 
simultaneously conducting programs in education, conservation, 
and research of marine mammals. The institute has been a 
participant in the National Stranding Network for over 25 
years, and as a National Marine Fisheries designee, has been 
involved in the care and rehabilitation of sick and injured 
marine mammals in Mississippi, Louisiana, and Alabama. In fact, 
the institute has developed a full service marine mammal 
research and rehabilitation center in Gulfport, Mississippi.
    It is really fortunate that in this case that we have a 
facility that can at least help in the rescue and recovery and 
rehabilitation of some of our endangered and threatened 
species. So far we have handled the largest number of sea 
turtles, which is over a hundred. Only a few of them have been 
involved in oil--oil spill related activities.
    The majority we have had no evidence of any oil damage. We 
have had close to eight or nine dolphins in our area, and so 
far none of them have been involved in any oil spill activity.
    The Horizon oil spill is one of the largest in U.S. 
history. The Mississippi Sound and adjacent waters are a very 
unique habitat consisting of bays, bayous, estuaries, marshes, 
and barrier islands. The northern Gulf is shallow, has a mud 
and clay bottom, and the tidal exchange is low as compared to 
other areas. The region is also very rich in fishery resources 
and produces a substantial amount of seafood. If the oil well 
is not capped quickly, the effects of the oil spill on the 
habitat and its wildlife could be catastrophic; and the time 
for recovery would be dependent on the amount of oil spilled in 
the environment and the time of exposure.
    Crude oil is a very complex chemical compound and it's 
degradation is extremely complex as well. Many crude oil 
components can enter the food chain and affect the productivity 
of the ecosystem. The potential effect of the oil spill 
including the large amount of dispersants used will not only 
effect the ecosystem but could also effect the livelihoods of 
commercial and recreational fishermen and tourism. This in turn 
could be a domino effect, have a domino effect on the regional 
and national economies.
    Oil exploration, like many other activities, has its 
benefits and risks. We believe that prudent development and use 
of our resources require adequate safeguards as well as safety 
net to protect the environment and those that make a living 
from it. Thank you.
    [The statement of Mr. Solangi follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Stupak. Thank you. Ms. 
Subra, your testimony.

       STATEMENT OF WILMA SUBRA, PRESIDENT, SUBRA COMPANY

    Ms. Subra. Thank you for the opportunity of presenting to 
this subcommittee. My name is Wilma Subra, and I'm providing 
testimony on behalf of Subra Company, Louisiana Environmental 
Action Network and the Lower Mississippi Riverkeeper.
    There are two human populations that are experiencing the 
most exposure due to the BP crude oil spill. One, community 
members along the coastal areas of Louisiana, Mississippi, 
Alabama, and the upper Florida coast; and two, fishermen and 
workers employed to install booms and clean up the crude oil 
spill.
    BP's ongoing crude oil spill has resulted in the formation 
of crude oil aerosols in the air. The aerosols have moved 
onshore way ahead of the crude oil slick and continue to move 
onshore along with the crude oil slick.
    These crude oil slick aerosols have caused and/or 
continuing to cause community members to experience odors along 
the coast of Louisiana, Mississippi, Alabama, and the upper 
Florida coast.
    In Louisiana and the other states, the crude oil aerosol 
has resulted in health impacts, including headaches, nausea, 
respiratory impacts, irritation to eyes, nose, throat, and 
lungs, and asthma attacks. These health impacts have been 
experienced by people living along the Louisiana coastal areas 
in St. Bernard, where we are here today, Plaquemines, 
Jefferson, Lafourche, and Terrebonne Parishes, as well as the 
metropolitan area of New Orleans.
    New Orleans is at mile marker 100. That means it is 100 
miles south of the mouth of the Mississippi and it is--people 
in New Orleans are also having these severe health impacts.
    These symptoms have also been experienced by workers and 
fisherman in the general area of the crude oil slick and the 
marshes and the estuaries where the oil has come ashore. The 
EPA Web site clearly says some of these chemicals may cause 
short-lived effects like headaches, eye, nose and throat 
irritations and nausea.
    In order to offset the loss of livelihood, BP was 
encouraged to hire the local fishermen who have first-hand 
knowledge of the wetlands, marshes, and water bodies. These 
fishermen were hired to install the booms and to start cleaning 
up the spilled oil and the absorbent pads.
    On May the 4th, 2010, Louisiana Environmental Action 
Network and Louisiana Riverkeeper received and began 
distributing protective gear to the fishers to utilize during 
their cleanup activities. These protective gear consisted of 
face respirators with organic cartridges, goggles, gloves and 
sleeve protectors. LEAN and LMRK continue to distribute these 
equipment to the fishing community and to individuals who have 
gone into the polluted area.
    Workers hired by BP began reporting health symptoms such 
as, severe headaches, nausea, difficulty breathing, and 
dizziness. However, the workers were very reluctant to speak 
out because they were scared they would lose the job and this 
was the only source of income they had. The wives, however, 
were speaking out because they were very concerned about their 
husbands. And then all of a sudden, the wives got really quiet 
because they were scared their husbands were going to lose the 
jobs if they testified.
    LDEQ and L-Department of Health and Hospitals has stated 
that oil cleanup workers should avoid skin contact and oral 
cavity or nasal passage exposure to the oil spill products by 
using appropriate clothing, respiratory protection, gloves, and 
boots.
    On May 7th we went to U.S. District Court on behalf of the 
fishermen because they were challenging BP, who didn't want to 
provide them proper training and proper equipment; and a 
consent decree was signed by BP that they would be responsible 
for appropriate training as well as proper protective 
equipment, yet BP continued to fail to provide adequate 
protective gear to the fishermen.
    Subra Company, LEAN and LMRK have provided information to 
the EPA on the lack of compliance by BP with the terms of the 
consent decree as well as OSHA not being there to protect the 
workers as they dealt with the oil.
    On May 16th OSHA finally issued a detailed directive of the 
kinds of training that were required for each different kind of 
task as well as having required BP to provide the appropriate 
gear. Still BP failed to provide respirators to the workers 
exposed to the crude oil and the workers experienced health 
impacts over and over and over again. However, when the--some 
of the fishers brought their respirators on the boats with 
them, BP told them to put the respirator away or leave the job, 
you are fired.
    Shrimpers that have been employed to do the booms are 
actually pulling in the booms with the oil on it from their 
shrimp boats with bare hands and no protective gear. As stated 
earlier, on May 26th and 28th, there were workers that were 
injured and brought to the hospital and they complained of 
headache, nausea, dizziness, and chest pains, then OSHA finally 
began to inform BP of their deficiencies as far as their worker 
safety programs.
    Let me just say that even after OSHA did this, the issue 
now becomes heat stress. One of the issues OSHA was pointing 
out to BP was they didn't have adequate protection of the 
workers from heat stress. So now the word on the street is you 
cannot use a respirator because it increases your risk of heat 
stress. However, if we are in a situation where the workers are 
being exposed to heat as well as the toxic organic chemicals 
from the spill, they should be protected against both insults, 
not using heat stress to allow them to continue to inhale the 
toxic chemicals. Thank you.
    [The statement of Ms. Subra follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Stupak. Thank you. And thank you all for your 
testimony. We will begin with questions, if we may. I'll begin 
on Dr. Solangi.
    In your testimony, I'm looking at the second page, you 
indicate that if the oil well is not capped quickly, the 
effects of the oil spill on the habitat, on its wildlife, could 
be catastrophic and the time for recovery would be dependent 
upon the amount of the oil spill in the environment and the 
time of exposure. But my question is: You know, how do you cap 
the well, stop the flow of oil, but then you have to have some 
cleanup and it's still going to be around for a time before the 
water waste purges itself of this oil, correct?
    Mr. Solangi. That's correct. One of my--part of my research 
was--in the '80s was, of course, you expose animals to oil for 
different concentrations and the question was how soon can they 
recover. And so it was really dependent upon the time of 
exposure, for how long did you expose both the pelagic and 
benthic organisms and how long it took for them to recover. And 
we did find amazingly that nature has a way to recover, but the 
speed of recovery depends upon how much they are exposed to and 
how long they are exposed to it; and that's what I was 
referring to.
    Mr. Stupak. Well, I showed this ad earlier by--by British 
Petroleum, and I bring it out because yesterday we were down 
south of Venice there where the mouth of the Gulf Coast and in 
the marshes there we saw some oil. There's really no way you 
can get in there and clean that up, is there?
    Mr. Solangi. It is very difficult and it's going to take a 
natural process. One of the biggest problems with this 
particular disaster is that it's very difficult to mitigate 
these issues. You know, we are all very familiar with 
hurricanes and earthquakes. We can build roads, but it's--you 
know, it's going to take time for nature to fix itself.
    Mr. Stupak. In the area we were yesterday, Pass a Loutro--
am I saying that right--Pass a Loutre or Pass a Loutre, they 
said 90 percent of that area is affected; and the only way you 
can really flush this out, clean this out is really through the 
Louisiana or Mississippi River flushing itself naturally, 
right?
    Mr. Solangi. That's--that's correct. That's one part of it. 
Of course, there will be natural degradation; there will be 
bacteria; there will be other processes that will take care of 
eliminating the oil, but it will take time depending upon how 
much oil there is. Small amounts for small periods of time, 
nature has its way of taking care of it.
    We do have natural seepages of oil in different places and 
nature takes--but this has been the most concentrated amount of 
oil that is coming through; and if it continues to come 
through, you are going to see a prolonged exposure and a 
prolonged effect.
    Mr. Stupak. So the initial effects of the oil on animals 
or--or any of our aquatic life really depends on the time of 
exposure; and I'm sure each species must depend on what amount 
initially affects it. It just depends on each species, right?
    Mr. Solangi. Yes, Congressman, that's an excellent 
question. The lady to my left had mentioned about inhalation, 
and probably it's a hundred miles away. Many of these animals 
breathe right on the surface or close to where the oil spill 
is, so you do get respiratory problems, marine mammals 
specifically.
    And just like you and I, they breathe the air and they give 
birth, they give milk to their young ones and they eat the fish 
that is contaminated, so it's really compounded considerably 
when these animals are very close to the surface or to the 
spill. And so I think it's going to be a very significant issue 
in mitigating the after effects.
    Mr. Stupak. Mr. Duplessis, did you indicate--did you 
receive the $5,000 check from BP initially for your loss of 
revenue?
    Mr. Duplessis. Yes, I did.
    Mr. Stupak. Nothing since then.
    Mr. Duplessis. No. I met just yesterday with an adjuster 
and he said that I would be getting another $5,000 check.
    Mr. Stupak. I was reading that shrimpers can go out, maybe 
earn 5 and 6,000 a day if they have a good day, right?
    Mr. Duplessis. That's--that's right.
    Mr. Stupak. OK. So like Mister--so like Mr. Cooper, Acy 
Cooper, was going to testify today, but he was asked to go out 
and do some cleanup.
    Mr. Duplessis. Right.
    Mr. Stupak. So he's been, what, head of the Louisiana 
Shrimp Association, so this was his opportunity, so 
unfortunately he couldn't be here today. He took the 
opportunity to work.
    I also read like it's almost like a lottery, like--or I 
don't want to say a lottery, but you might work for a few days 
on the cleanup, but it's a month later before you are called 
again. So you get the $5,000 check for working for a few days 
or I guess like an initial payment? I guess I'm trying to 
figure it out.
    Mr. Duplessis. The $5,000 checks that they have been giving 
out to the commercial fishermen is supposed to be to--in 
mitigation for lost wages, for lost income. Now----
    Mr. Stupak. But that's only a day's work.
    Mr. Duplessis. Right.
    Mr. Stupak. For shrimpers.
    Mr. Duplessis. Yes. Well, don't--I mean we--shrimpers 
make--we might make $5,000 per day, but then we have these long 
down periods that we don't.
    Mr. Stupak. Sure.
    Mr. Duplessis. We don't have income at all. But, for 
example, the first time I met with the adjuster, my wife and I 
sat there and he asked the question, ``Well, how much are you 
losing this month and how much do you expect us to--to pay 
you?''
    Mr. Stupak. Right.
    Mr. Duplessis. Well, my wife went through the paper and she 
said, ``Well, last May we made $27,000.'' And he says, ``Well, 
we are going to give you a check for $5,000 now and you give us 
your proof of income and next month we'll--we'll finalize these 
adjustments.''
    Well, I just met again with them yesterday and another 
$5,000 check is what we are going to get, what they promised to 
me anyway.
    Mr. Stupak. So you are still $17,000 short for one month.
    Mr. Duplessis. For one month, yes.
    Mr. Stupak. Well, let me ask you this: BP puts out things, 
these daily statements on what they are doing; and they said 
more than 2,600 vessels are now involved in response effort 
including skimmers, tugs, barges, and recovery vehicles? So 
that would be some of the shrimpers and other people working in 
the Gulf going out there. There's not 2,600 vehicles out there 
today. There's been--that's like the cumulative amount over the 
last seven weeks, 49 days, since this spill's been going on, 
right?
    Mr. Duplessis. Well, my name's been on the list from day 
one.
    Mr. Stupak. OK.
    Mr. Duplessis. And I have yet to get a call from BP to go 
to work.
    Mr. Stupak. So your boat's never been out there.
    Mr. Duplessis. My boat's never been out there.
    Mr. Stupak. So you might be out on--you might be one of 
those 2,600 vessels that they speak of, but your boat's never 
seen the water.
    Mr. Duplessis. That's a possibility. I don't know.
    Mr. Stupak. OK. My time is expired. Thank you. Mr. Burgess 
for questions.
    Mr. Burgess. Thank you, Mr.--no, let's stay with you for 
just a moment. Now, the $5,000--and, again, as a student of the 
consumable crustacean, I thank you for what you do and your 
contribution to the country's economy, and it is important that 
we get you up and running.
    The $5,000 payment that you get, is that like a--how is 
that being treated, as business interruption insurance?
    Are you taxed on that? Is that to go--just to pay your 
overhead that you are not able to pay but not anything for--for 
your income? What--what is that--what does that $5,000 
represent?
    Mr. Duplessis. BP's explanation is this is payment in lieu 
of final settlement.
    Mr. Burgess. OK. So it's a--it's a temper rising measure on 
their part.
    Mr. Duplessis. That's their explanation to me.
    Mr. Burgess. And I would never tell the IRS, but how are 
you and your accountant handling that; is that taxable income 
to you.
    Mr. Duplessis. Oh, I would imagine it is. Yes, I would say 
it is?
    Mr. Burgess. It's not treated as business interruption 
insurance, which obviously would be an insurance payment that 
would come to your business that would then not be taxed. At 
least that's my understanding, but I'm not an accountant, so 
don't take that to the bank.
    Mr. Duplessis. Yes. I would have to talk to my accountant 
about that.
    Mr. Burgess. Mr. Linn, you are from Alabama. Mr. Stupak is 
not the only one in a newspaper. Wall Street Journal, this 
morning reading on the plane down here on the way from Texas, 
talking about the--how emotions are boiling over in Alabama. A 
BP official met with local leaders on Saturday to discuss 
cleanup efforts and he was threatened with incarceration. 
``I've got a solution. We can put you in our jail and you can 
sit there until you figure it out,'' Edward Carol, the city 
councilman in Orange Beach, Florida [sic], told Bob Fryer, a BP 
senior vice-president. Is that pretty reflective of the--of the 
feeling back home?
    Mr. Linn. It is rapidly escalating in terms of frustration. 
We--the gentleman here was talking about the boating situation 
of 2,600 vessels. We were told--we had--we invited BP to speak 
at a chamber meeting, too, for our local businesses. They told 
us basically that there they had 1,400 vessels.
    They had 400 contracted, they had 400 in waiting, and 50 on 
the water, which kind of blew us away.
    Mr. Burgess. Yes.
    Mr. Linn. Now, we were not in--we were beginning the war 
with the tar balls and the things. You know, we weren't totally 
slammed at that point, but that was sort of the attitude.
    The money situation is the same--same thing. The 5,000 has 
been given out just almost as if it's more a marketing ploy 
than it really is an accounting ploy. They are coming back with 
second payments to some of the folks, but the vessels of 
opportunity folks that have signed on that actually have been 
called and are working have not seen monies as of this morning 
at 9:00 when I called.
    The businesses, when you talk about $5,000, we have a 
$60,000 a year--a month overhead for my business, so I would 
get two and a half days out of that. That's why I ended up 
saying, OK, I've got to do something else. I've got to go--I am 
now doing an SBA loan, which I had no intentions of having to 
try to borrow again but this is on and above another one that 
we had from the hurricanes, of course. It's the only way we are 
going to keep our business alive is to have cash flow. We do 
not feel that BP is going to be stepping up to the plate.
    Mr. Burgess. Yes, but an SBA loan with no end in sight to 
this, I mean how--how are you going to manage that aspect of 
the cash flow?
    Mr. Linn. Our problem right now is survival over the next 
six months. I feel that between you guys, everybody stepping 
into the plate up here and then helping us out, I feel that 
there will have to be some help from BP coming down the road. 
We have approximately two months left of cash flow.
    Mr. Burgess. Yes. I'm going to interrupt you. I agree with 
you there. There will have to be some help.
    Dr. Subra, let me just ask you a question. You detailed the 
safety concerns that you have. Where is the EPA in this? I mean 
this is federal oil. These are federal hydrocarbons produced on 
federal land. You talked about OSHA, you know. You talked about 
Louisiana Health and Human Services, but should not the EPA be 
out there front and center issuing--to heck with what BP says. 
The EPA should be giving the directive for these people to have 
protective gear.
    We just finished a very contentious 9-11 bill in our 
committee where the EPA, under a different administration, was 
excoriated for not having done more to protect the people who 
were sent to do the cleanup of the 9-11 site, and now Congress 
is--is left taking care of--taking care of their disabilities 
for the rest of their natural lives. Why is the EPA not more 
proactive in this--in this environment, in this emergency?
    Ms. Subra. We've been--we have been working with the EPA 
from the very beginning on this, and they have put up monitors 
on the shore on--on the solid land. There are three in 
Chalmette from Arabi south, and then there are three in the 
Venice area and then they also have mobile monitors.
    EPA is telling us that BP is responsible for doing the 
monitoring out in the areas over the slick and in the boats and 
in the area that the workers are working in. That data 
supposedly has been given to EPA, but EPA has not made that 
public. And we have asked for that now for over a week and a 
half, to receive the BP data so we can see exactly what they 
are monitoring and if they are monitoring for the right thing 
and what kind of conditions because we know the fishers are 
sick.
    Mr. Burgess. Well, it seems like the EPA should assert its 
authority and cause BP to put protective gear--make the 
protective gear available to the people who are involved in the 
cleanup. After all, it was BP's fault that they are out there 
having to clean the stuff up in the first place. Just my 
observation, Mr. Chairman. Thank you.
    Mr. Stupak. Thank you. Mr. Braley for questions, please.
    Mr. Braley. Thank you, Mr. Chairman. I would like to focus 
on the BP claims process because BP has repeatedly stated to 
this committee and to the public and the press, we will pay all 
legitimate claims.
    And when I missed the tour of the marshes last night 
because of a flight delay in Dallas, I got in the car and I 
drove down to Venice in a monsoon. And as I was driving back 
last night, I saw a sign on the side of the road that I think 
captures the attitude of most people in the Gulf Coast toward 
BP right now, and it said, ``Damn BP, God bless America.''
    And I think that's how these witnesses who have gone 
through so much in the past 40 days feel about what's happening 
to them, their way of life, their families, and that's why this 
hearing is so important. Because when I was down in Venice, I 
saw a lot of vessels that were sitting in dock. And when I 
talked to the folks down there, they told me they hadn't been 
out in days or weeks, even though they were hired by BP.
    So one of the things I want to talk to Mr. Duplessis and 
Mr. Linn about is this BP claims process. We have heard that 
they created a claims process for fishermen and for small 
business owners impacted by the spill. And, Mr. Duplessis, you 
talked a little bit about how that claims process worked; but 
as I understand it, you are required to present documentation, 
and if you are a boat captain or a deckhand, you can receive 
from 5,000--up to $5,000 per check up front. Can you tell us a 
little bit about how that process actually works; do you know?
    Mr. Duplessis. From the start or when they started the 
program, they sent out a list of things that we would need for 
proof of income for them to mitigate this. They wanted three 
years of income tax records; they wanted trip tickets, which 
are tickets that we use on most of the shrimping and oystering 
logbooks for the oyster people; and I went in with everything 
they requested. The guy almost looked like he didn't want it. 
He just--he took the three years of income tax records because 
my wife had already made--made copies for them to take. I--I 
almost had to--I forced him to take it.
    Here, you want it, I've got it. And they issued me the 
following day--gave me a check for $5,000 and said that this 
was not payment in full.
    And I might add when the payment process--when they first 
started the program, I--I was a week or two into the process 
before I--I did mine. The attorneys, local attorneys and the 
state's attorneys read the paperwork that they had the 
fishermen sign, and they were actually signing paperwork that 
was releasing BP from liability when they signed this 
paperwork.
    Mr. Braley. So they--they were requiring you to sign----
    Mr. Duplessis. Yes.
    Mr. Braley [continuing]. A waiver against future----
    Mr. Duplessis. Exactly.
    Mr. Braley [continuing]. Claims in order to get this 
upfront payment?
    Mr. Duplessis. Exactly.
    Mr. Braley. And I'll bet you nobody explained that to you 
when you applied for that first payment?
    Mr. Duplessis. Well, by the time I got there, the state's 
attorney was all over BP and made them do away with this 
paperwork.
    Mr. Braley. But it was after some of the----
    Mr. Duplessis. Oh, yes.
    Mr. Braley [continuing]. Had already received payments and 
signed that paper for them to waive claims?
    Mr. Duplessis. Yes. But they also made them take those 
paper--papers and null and void them.
    Mr. Braley. Now, you indicated in your opening statement 
you had a thousand questions and no answers. Is there anything 
about your experience with the BP claims process you would like 
the American people to know, Mr. Duplessis?
    Mr. Duplessis. It's a cluster. It's a total mess. Just 
three days ago, there were three adjusters in this building 
taking claims. Three fishermen would walk out and each one was 
told different things from each individual adjuster. One 
fisherman, he's a good friend of mine, told me that the 
adjuster basically threatened him by telling him that, hey, you 
have a big--very large top line here on your taxes and your--
your bottom line is very small. We want to put you on notice 
that you are going to get payment on this bottom line, not your 
gross income.
    Mr. Braley. Mr. Duplessis, my father enlisted in the Marine 
Corps when he was 17 and served on Iwo Jima, and I just 
recently interviewed my cousin who served in the Marine Corps 
in Vietnam during the Tet Offensive. You are the embodiment of 
the Marine Corps motto of Semper Fidelis, always faithful, and 
I'm very grateful you came here and shared your story here with 
us today.
    Mr. Duplessis. Thank you so much. Thank you.
    Mr. Stupak. Those adjusters, are they BP representatives or 
insurance companies for BP?
    Mr. Duplessis. I think they are hired, contracted 
adjusters.
    Mr. Stupak. OK. Mr. Markey for questions, please.
    Mr. Markey. Thank you. Tony Hayward, the CEO of BP, said 
that BP would pay for all legitimate claims of fishermen, of 
tourism--tourism based industries. You presented your bills, 
your profits from last May and it was $27,000, but they only 
gave you a check for $5,000. What did they say to you?
    Mr. Duplessis. They said that this was not a final 
settlement, that there would be--this was only the beginning of 
the process. In--in other words, what they are saying is that 
they--they are just giving this amount of money to us to hold 
us over until final----
    Mr. Markey. OK.
    Mr. Duplessis [continuing]. Mitigation, but----
    Mr. Markey. BP made $6 billion in January and February and 
March of 2010. They say they are going to pay every legitimate 
claim. You walk in with your tax records proving that last May 
you made $27,000, so what did BP say to you? They'll wait later 
or are they just waiting you out? Are they just waiting for 
the--kind of the storm to pass and they won't have to pay all 
these claims for all of the fishermen? Because that's what I 
suspect their real plan is.
    Mr. Duplessis. I'm just hoping that it doesn't end up the 
way I'm thinking it will: When the storm's over, they're going 
to pack their bags and leave us.
    Mr. Markey. You know, there's a law right now that does 
protect them against having to pay----
    Mr. Duplessis. I know that.
    Mr. Markey [continuing]. Any more than $75 million to all 
of the fishermen of the Gulf, to all of the tourism industry of 
the Gulf. They are only really responsible for cleaning up the 
mess out in the ocean. But in terms of the impact on you, 
there's a limit of $75 million.
    Would you support repealing that law so that there is 
unlimited liability for BP to ensure that all of you are paid, 
not because BP out of the goodness of their heart determines 
that they are going to give you a check, but because the law 
requires that they have unlimited liability? Would you like to 
see that law repealed?
    Mr. Duplessis. 100 percent.
    Mr. Markey. How about you, Mr. Linn?
    Mr. Linn. No doubt about it. If you----
    Mr. Markey. Repeal that law. How about you, Mr. Solangi?
    Mr. Solangi. I agree with you.
    Mr. Markey. How about you, Ms. Subra?
    Ms. Subra. I agree.
    Mr. Markey. All right. So we got agreement on that. How 
about the--how about the Jones Act, do you want to repeal that 
law, you know, the limitation on damages for families, Mr. 
Linn?
    Mr. Linn. No doubt about that one at all.
    Mr. Duplessis. Of course, yes.
    Mr. Solangi. I agree with you.
    Ms. Subra. I agree.
    Mr. Markey. Agree. Now, I think what we are seeing already 
is business as usual at BP. Giving you $5,000 when you have 
incontrovertible evidence that last May your family made 
$27,000 is just the beginning of a long story that we are going 
to have.
    And as Dr. Burgess just said, we just had a big debate nine 
years later about the health impacts on people who were working 
on 9-11, people exposed on 9-11, and there's still a debate as 
to whether or not we should basically take care of those 
people. We are having a hard time doing that now. And the 
lesson we learned, Ms. Subra, is that we have to get in at the 
beginning. We have to give them the protection at the 
beginning.
    Do you think that BP is providing the resources necessary 
in order to ensure that the equipment is there, the training is 
there, to protect these people who are being exposed to these 
chemicals?
    Ms. Subra. Not adequately, and that's what we have been 
working on since the very beginning.
    Mr. Markey. Mr. Solangi, do you think that BP is doing the 
work to ensure that there is a full understanding of the impact 
these chemicals are having on the ocean, on all of the 
unintended consequences of shooting dispersants into the ocean 
in terms of the impact that it can have upon the livelihoods of 
the people who live down here in the Gulf?
    Mr. Solangi. I don't think they were prepared for it and I 
think not enough is being done yet.
    Mr. Markey. Yes. BP did not stand for being prepared. We 
know that for sure. But we don't want to see them nickel and 
diming each one of these issues either in order to ensure that 
there is full protection. In terms of tourism, Mr. Linn, what 
has BP done to ensure that there is some anticipatory help for 
you in Alabama?
    Mr. Linn. They granted--they granted $25 million to the 
state of Alabama, which is----
    Mr. Markey. How much did you say?
    Mr. Linn. 25 million----
    Mr. Markey. 25 million.
    Mr. Linn [continuing]. To the state of Alabama. Part of 
this is for preparation, part of it was for advertising, you 
know, to try to counter all the things that are being said in 
the press.
    Mr. Markey. How much does the--how much does the tourism 
business make in Alabama?
    Mr. Linn. I'm not sure of the grand total. I know Orange 
Beach and Gulf Shores are the big brothers. We are the smaller 
brother. I think we bring in somewhere in a range of around--as 
a state it could be in the range of $70 million, but I'm not 
sure.
    Mr. Markey. OK. Seven----
    Mr. Linn. $70 million, I think, as a state, Alabama, but 
I'm not sure----
    Mr. Stupak. You are running over.
    Mr. Markey. Thank you.
    Mr. Linn. Does that work?
    Mr. Stupak. Go ahead. Finish your answer.
    Mr. Linn. The--the trickle down effect on that is $10 
million is going to Baldwin County. Ten million is going to 
Mobile County, which is on our side. Baldwin has the Orange 
Beach, Gulf Shores guys. That's being broken down to--
approximately seven million of it on our end was going to 
preparatory use to prepare a second protective sand barrier to 
try to stop the oil on the beach. They are not doing it in the 
water because of surf and things like that. It trickles down 
from there to--a good sizable sum was going back to the fishing 
community to help there, again, back to the vessels of 
opportunity. And I think we ended up with the Dauphin Island 
Chamber of Commerce in conjunction with the town of 125,000.
    Mr. Markey. My goal is going to make sure they have 
unlimited liability to protect each and every one of you and 
your families in this incident.
    Mr. Stupak. Ms. DeGette, questions, please.
    Ms. DeGette. Thank you, Mr. Chairman. Mr. Linn, I want to 
follow up on--on something--on--on some of these questions that 
Mr. Markey was asking because Mr. Duplessis also confers, but 
then you said in your written testimony while it is grossly 
inadequate that some of the fishermen and the shrimpers are 
getting some payments for like $5,000 in a month; but what you 
said in written testimony is for the small businesses like you, 
you have overhead of $60,000 a month, that the claims process 
seems to be much more cumbersome. Have you been getting any 
payment from BP?
    Mr. Linn. None whatsoever.
    Ms. DeGette. You have got no payment whatsoever from BP?
    Mr. Linn. No, ma'am. We started out talking directly to BP. 
I was transferred from one department to another department 
because they had not dealt with a small business, according to 
the adjuster that I had or the--you know, the guy on the other 
line with BP.
    It is now my understanding that while we have on Dauphin 
Island and Bayou La Batre, our neighboring city, two claims 
offices, they are not geared at doing anything more than 
gathering information from the small businesses. Everything is 
going to Hammond, Louisiana and it's processing four states 
worth of small business activity.
    Ms. DeGette. Have you--have you been given any indication 
when you might start getting some compensation?
    Mr. Linn. No, ma'am. I--in my--in my case I did go to an 
attorney, local attorney, to start helping me with the process 
because I was getting nowhere.
    Ms. DeGette. And are you having to pay that attorney to get 
your compensation?
    Mr. Linn. I'm afraid it will be coming up, yes, ma'am.
    Ms. DeGette. And that bill will be coming in the mail?
    Mr. Linn. That is why, again, the SBA became important to 
me.
    It's not that I want another loan. It's that I have to keep 
active.
    Ms. DeGette. So--so now you're having to take out loans?
    Mr. Linn. Yes, ma'am.
    Ms. DeGette. Mr. Stupak was talking about this. You're now 
having to take out loans to keep yourself afloat because the 
claims process is so slow?
    Mr. Linn. Exactly. Exactly.
    Ms. DeGette. And do you think this claims process could be 
made more easy? I guess let me back up. Mr. Duplessis, I think, 
has the most organized wife, maybe as organized as my husband 
is. You can even--you can--is she here?
    [Mrs. Duplessis indicating.]
    Ms. DeGette. Thank you. So--so you can find out from May of 
last year what your income is. I assume you have similar 
records.
    Mr. Linn. I do. I have good records. In fact, the same 
information that we are supplying to the SBA is pretty much the 
same information----
    Ms. DeGette. Right. And--and so they should be able to 
determine what kind of compensation you are going to get----
    Mr. Linn. Yes.
    Ms. DeGette [continuing]. If as--if as Mr. Markey says, Mr. 
Hayward--he--by the way, when he said this, he was under oath 
just like you are today, that everything would be made clear. 
So do you expect that's going to happen?
    Mr. Linn. My real hope--and this is the only statement on 
this part I'll make. We as individual small businesses, the 
fishermen, ourselves, have--have not--we do not have a chance 
of fighting BP. We will not win that battle. You guys can help 
us. The SBA can help us. I should not be borrowing money from 
the SBA. I should be getting a grant from SBA that BP pays and 
you guys get the money from BP.
    Ms. DeGette. Well, guess what? We intend to--we intend to 
help you, so we're----
    Mr. Linn. Because we can't do it on our own.
    Ms. DeGette. As you heard, we are going to stay on this 
until we do.
    Mr. Linn. I really appreciate that.
    Ms. DeGette. I just have a couple questions, Ms. Subra, 
about the environmental impacts because you talked in your 
written and your oral testimony about these dispersants and 
your great concern for the Gulf Coast residents. The EPA has 
also expressed concerns about the burning of oil and the use of 
oil dispersants, and they have asked BP to use less of the 
toxic dispersants. Do you know what BP's response was?
    Ms. Subra. Well, EPA used--asked them to use less toxic 
ones.
    Ms. DeGette. Yes.
    Ms. Subra. And they came back basically justifying the 
existing one, and then EPA asked them to use less. One of the 
major concerns I have is that most of the constituents of the 
two dispersants they are using are proprietary so when the 
workers were ill----
    Ms. DeGette. You mean the chemicals that are in the 
dispersant?
    Ms. Subra. Right. The chemicals that are in the dispersants 
are proprietary. So when the workers are ill and they go to the 
hospital, the workers don't know what potential chemicals they 
are exposed to and so they don't know how to treat them, and 
it's an issue that we have been working on for a long time, but 
that kind of information needs to be available to the general 
public, but if not to the general public, it needs to be 
available to the medical community----
    Ms. DeGette. To the first responder?
    Ms. Subra [continuing]. Immediately so that they know how 
to handle the cases.
    Ms. DeGette. Now--now, is there some alternative to these 
dispersants to start to begin to clean this up?
    Ms. Subra. Wait. Could you ask that again?
    Ms. DeGette. Is there some alternative way to clean this 
up, to minimize the risk than using the dispersants?
    Ms. Subra. Well, the alternative ways are to have it as a 
slick and recover it from the slick and disperse it into the 
water column, which has a huge environmental impact when it's 
dispersed into the water column. And both the slick and the 
dispersed chemical--chemical in the water column come onshore. 
It's just when it's dispersed in the water column it's not as 
visible as when you see it coming onshore, as you-all saw when 
you-all went--went on the tour.
    Ms. DeGette. Thank you.
    Mr. Stupak. Thank you. Let members know we're going to try 
and go two rounds here if we have time here. We are trying to 
wrap up by 2:00, but let's get one round through and, if we 
can, we'll get a second round on the panel for questioning.
    Ms. Schakowsky, questions, please.
    Ms. Schakowsky. Thank you. Ms. Subra, you have told us that 
BP forced commercial fishermen who signed up to work on the 
cleanup to sign waivers that severely eliminate--limited any 
future legal claims, but that was resolved. Was that in court 
that these waivers were removed from employment agreements or 
did you just get them to do it? How did that happen?
    Ms. Subra. We went to court on May 2nd, Sunday afternoon, 
as a result of the inappropriate waivers they were making the 
fishers sign and BP signed an agreement that those waivers 
would no longer apply; and that was limited to the State of 
Louisiana. So even when he talked about them not knowing, 
once--once we get a decision in court, it's not enforced.
    Five days later we went to court, and the court said BP 
must train and provide the protective gear. And, again, it's 
not being enforced, so we have done all the right things.
    It's lack of enforcement and lack of engagement with a lot 
of the agencies.
    Ms. Schakowsky. So, first of all, though the agreement only 
applied to Louisiana. In the context of this, did BP ever 
explain their rationale for saying that they wanted to remove 
any liability for themselves?
    Ms. Subra. No. They just agreed in court that afternoon and 
signed an agreement that it wouldn't be appropriate and 
therefore it wouldn't hold water on any of the agreements that 
had been signed previous----
    Ms. Schakowsky. In Louisiana?
    Ms. Subra [continuing]. Or it wouldn't be included in the 
new agreements.
    Ms. Schakowsky. In Louisiana?
    Ms. Subra. In--well, the--they did the agreement, and then 
the states of Mississippi and Alabama stated if it was to apply 
in those states the case would have to be brought in those 
case--states.
    Ms. Schakowsky. I see.
    Ms. Subra. They made that decision.
    Ms. Schakowsky. Now, are you saying that BP still is not 
providing any kind of appropriate protective gear?
    Ms. Subra. They are providing Tyvek suits in some cases. In 
the case of those shrimpers, they weren't providing that. They 
are not providing the respiratory protection; and that's where 
you get the inhalation of the toxic chemicals off the spill and 
any dispersants. And, in fact, if the workers bring a 
respirator that we have provided them and others have provided 
them, they tell them they are going to fire them unless they 
put the respirator away.
    And now since OSHA said you need to protect them against 
heat stress, they are using heat stress as an excuse not to 
have them where the respirators. And, in fact, you can't deal 
with heat stress and just ignore the inhalation stress. You 
need to address both issues. And yes, it's very hot in 
Louisiana, it's very humid, but this is a workplace environment 
and they need to be protected against both situations.
    Ms. Schakowsky. So your organizations have provided, at its 
expense, these private organizations with equipment that now 
they are prohibited from using?
    Ms. Subra. That is what BP is doing. They are prohibiting 
the workers from using the respirators.
    Ms. Schakowsky. And tell me the role that OSHA has played 
or the role that you think OSHA should play?
    Ms. Subra. I think they should be out there enforcing the 
regulations that they have to have appropriate workplace safety 
and protection for the workers.
    Ms. Schakowsky. But to the extent that, well, that's their 
job, but have you seen them and is this work being performed?
    Ms. Subra. Well, they were a little slow in coming on the 
scene.
    We had to work through EPA to demonstrate that they were 
really needed, and then they issued a directive on exactly what 
kind of training and the protective gear and it was required by 
BP to provide that. And now, we are seeing when they are going 
out and evaluating they are really taking on BP and focusing a 
lot on the heat stress, and still the workers are getting sick 
when they inhale the off gassing from the slick and from the 
aerosol.
    Ms. Schakowsky. And I assume you have brought that to 
OSHA's attention as well as to the company. What's the response 
to that in terms of the respirators?
    Ms. Subra. The--the issue of the heat stress versus not 
wearing the respirators just came to light after I had prepared 
my testimony over the last four days, so we are trying to 
figure out what kind of response we can get through EPA and to 
OSHA to BP, so we are working on that right now.
    Ms. Schakowsky. Some of these economically stressed workers 
who were hired to do this job apparently expressed fear that 
they would be fired if they complained?
    Ms. Subra. Right.
    Ms. Schakowsky. Is that accurate?
    Ms. Subra. Yes. And I'm hearing that from fishers all the 
way across Louisiana as well as in Mississippi and Alabama.
    Ms. Schakowsky. And--and were they fired because--or how 
did they get that impression that if they complained they would 
be fired?
    Ms. Subra. From working for BP or BP's contractors.
    Ms. Schakowsky. And have people been fired that are 
complaining?
    Ms. Subra. The fishers will tell me and tell a lot of the 
NGO's this; but when it comes down to telling it to someone 
that will do an affidavit, they are very reluctant because they 
are desperate for these jobs.
    Ms. Schakowsky. Thank you.
    Mr. Stupak. Thank you. Thanks. Ms. Christensen for 
questions, please.
    Mrs. Christensen. Thank you, Mr. Chairman, and I would like 
to thank the witnesses for taking the time to be here with us 
this morning; and thank you for two rounds.
    Ms. Subra, in your testimony you say--and this kind of 
follows onto what my colleague, Ms. Schakowsky, was asking. You 
said decisions have been made that have and will continue to 
result in detrimental impacts to human health and the 
environment as a trade-off for attempts to reduce the quantity 
of crude oil from reaching the shores, estuaries, and wetlands 
to the northern Gulf of Mexico. Both are important.
    Why can't we do both? Why can't we protect the health and 
environment as well as protect the shorelines, the estuaries, 
and the wetlands? Is it not possible to do both? What is it 
that you think needs to be in place to make sure that we can do 
both because both are important? We need to protect the 
wetlands and the estuaries and we need to protect the health 
and the environment. This is an advanced country. This is the 
leader of the free world. Can't we do both?
    Ms. Subra. First of all, the response that BP has provided 
as the oil moved closer to shore and came onshore in the 
wetlands and on the sandy beach areas and dispersed into the 
water column and came on shore in the water column has not been 
adequate. It has allowed the slick and the dispersant to come 
onshore and contaminate the wetlands and all.
    But the issue of the workers, the workers should have been 
protected from the very beginning. It's a bad enough situation 
we have with the oil coming ashore and contaminating things, 
but there's no reason why these workers shouldn't be hired and 
shouldn't be put in the position to be totally protected as 
they do their jobs for BP.
    If BP had a job site on a rig, you would expect them to 
have total protection and safety for the workers, and yet these 
people seem to be treated as if they are expendable; and if 
they try and protect themselves, they are threatened with being 
fired and losing their job.
    Mrs. Christensen. So it comes down to the protection 
issues, the protective gear, the mask, and so forth. That's 
what it comes down to. That's--that's what we need to focus in 
on.
    Ms. Subra. Right. When they are dealing in the area with 
the crude oil, they need protection to stop the inhalation 
pathway of exposure.
    Mrs. Christensen. Yes. And, you know, in all of the areas, 
as I've said in my opening statement, I've asked about 
protection, protective gear and have been assured that that was 
in place; so those assurances obviously didn't mean anything 
because it wasn't until your organization and other 
organizations and regulations forced the issue that it began to 
take--be put in place, so thank you. Thank you for your work 
that you have been doing.
    Mr. Linn and Mr. Duplessis, obviously with this being the 
largest oil spill in the history of our country, there's lots 
of media attention. On balance from your perspective, has it 
been--has the overall impact and balance been positive for your 
businesses or negative?
    What has been the end path on tourism and fisheries?
    Is the full story being told by our media or is it just the 
bad side, and what has the impact of the media been?
    Mr. Linn. Start here?
    Mrs. Christensen. Yes.
    Mr. Linn. The impact on us by the media has been pretty 
much 90 percent negative. It's hard to have a positive impact 
when the only thing that they can bring to the table is the 
ultimate contamination of the island, the picture--the awful 
pictures of the birds, the environmental quality.
    We have been fielding so many calls regarding people trying 
to cancel in our case. And this is--I'm--I really am speaking 
for pretty much most of the Alabama tourism coast with this. 
The--the questions they are asking are do we have to go out and 
look at these dead birds laying on your beach? This is the 
impact that the press has had.
    Our PR guy for the town of Dauphin Island did a quick study 
and, you know, these numbers are approximate, but they--they 
looked at the average advertising cost. If we had gone out and 
bought the--bought the time, it's $7.5 million in negative 
advertising.
    Now, we have a $40,000 a year advertising budget for the 
Chamber of Commerce, so we have got a battle that's uphill. But 
that's--our--our impact has--has been terrible as a matter of 
fact.
    Mrs. Christensen. Mr. Duplessis.
    Mr. Duplessis. Just like Mr. Linn has said, everything that 
comes on the TV is birds that are being--that are oiled and 
this is all negative, negative, negative.
    Now, our area, our seafood and promotion board, did manage 
to get some money from BP and they are running some--some 
pretty good advertisement about our seafood that is still safe, 
which is--it's hard to convince people that the seafood is safe 
when you've got oyster areas that are being opened and closed 
daily and shrimping areas are being closed and not re-opened. 
It's hard to--to convince people that the seafood is safe and 
it's negative.
    And as far as the media is concerned and the TV and 
everything, I am up to my neck in advertisements saying if you 
have been affected by the Deepwater Horizon oil spill. I am up 
to my neck in it. I am just----
    Mrs. Christensen. You've had enough. And to you Mr. 
Duplessis, the Louisiana promotion----
    Mr. Stupak. Time's up.
    Mrs. Christensen. My time's up.
    Mr. Stupak. Yes.
    Mrs. Christensen. OK. Didn't hear it.
    Mr. Stupak. I'm running a little tight and we all want a 
second round. Mr. Melancon, questions, please. Five minutes.
    Mr. Melancon. Thank you, Mr. Chairman. Ms. Subra, let me 
ask you--and, of course, there's been a lot of issues about 
dispersants, whether it's helping or hurting long-term, but I 
guess where I'm going with it is with or without dispersants, 
what do you see? We shutdown the oil tomorrow, which would be 
wonderful, but what do you see in the time frame for recovery 
for the Gulf and for the estuaries should they be impacted.
    Ms. Subra. I see a very long-term recovery. I think that 
estimate is better served after we've stopped the flow of oil 
and we've gotten rid of the slick as well as the dispersed 
water column oil; and then we will have information about the 
contamination, both in the marshes, the wetlands, as well as 
the sea bottom and then we'll be able to figure out an estimate 
of how long recovery will take.
    Mr. Melancon. That's--that's why I was using if we shut it 
down tomorrow, which I pray that it would happen, or at least 
get it closed off. Because it's somewheres in the range of half 
a million barrels to a million barrels a day is, I think, where 
the numbers are. That's five--that's 12 to 19,000 or 20,000 
barrels a day, so that's--I'm sorry--million gallons a day.
    Mr. Duplessis, in light of the fact that this may be a 
decade long degradation problem to the estuaries to the place 
where the shrimp start their life cycles, where the speckled 
trout, the red fish, the snapper, and all that that comes out 
of the estuaries, what's in your mind? What's in your thoughts? 
What are you feeling right now is the future for you and the 
communities like Gulf Shores, Grand Isle, Venice, Point a la 
Hache?
    Mr. Duplessis. Mr. Melancon, just like you, I am a sport 
fisherman and hunter, and I've--I've been trying not to discuss 
it, but I have four children and 14 grandchildren. All four of 
my children hunt. We are big time duck hunters; and as my 
grandsons grow up, we--we are teaching them. We are taking them 
out in the marsh hunting, and this part of our culture is--it's 
really--it's devastating to just think about it. I can't--I 
won't--it's a possibility that I won't be able to take my 
grandkids out and hunt with them.
    And the other side, the economic side of it, I'm 65 years 
old now. I'm not young anymore. I can't--I can't change my 
livelihood, so it's--it's going to be--it's going to be a rough 
ten years ahead of me.
    Mr. Melancon. It--it's exactly the feeling I have. Mr. 
Linn, you are on the opposite side in--in one respect, but I 
remember Dauphin Island when it was like a Grand Isle. Of 
course, it's probably more condominiums than more of a beach 
now, but what--what do you feel? I mean we can clean the 
beaches quicker, but you have got those estuaries right behind 
the island that are important to the fisheries. That's what 
brings people to Dauphin Island. How are you feeling about this 
short-term, long-term?
    Mr. Linn. I--I think that's the--the biggest difficulty 
that we are all having with this. None of us can get our arms 
around it like you can a hurricane, which, you know, no one 
wants to hug one, but we can see an end, we can fix things, we 
can get on with our life. Dauphin Island really hasn't changed 
that much, sir, at this point. We have a couple of condos, but 
the--the culture, the--the whole life I--I fear is--it's going 
to be decades. And that's--that's even an if because the stigma 
of what is going on here, how long it will be.
    We are still being told that our island was cut in half by 
Katrina, when actually it was part of the uninhabited part. 
That's five years later. This kind of a stigma of oil on our 
beaches, the shrimping, the estuaries, the oysterman, the 
culture, it's--it's gone. And none of us from day-to-day know 
how we are going to cope through this. We are talking short-
term keep your business alive. A year from now are we going to 
be able to survive in the same business or is it just pack it 
up and get off the island, and none of us know.
    Mr. Melancon. Yes. When--when this first started and the 
SBA came and said we'll do----
    Mr. Stupak. Time's up.
    Mr. Melancon. If I can just finish the thought real quick.
    Mr. Stupak. Real quick.
    Mr. Melancon [continuing]. Started talking about the 
emergency loans, which they can defer payments for a year which 
will give you the opportunity, I thought well, oh, great, you 
know, because that would give the business owners and the 
fishermen and those people that are impacted an opportunity to 
see where this thing's going to play out. But if we are talking 
about a decade or decades, it's not going to play out in our 
lifetime and it may not play out in my son's lifetime.
    Mr. Linn. And I--I will say one thing on SBA. One phone 
call and my two deferred--my two loans were deferred for 12 
months. It was not a hassle. It was we are here to help, so I 
have to give them that credit.
    Mr. Melancon. Thank you.
    Mr. Stupak. Mr. Scalise for questions, please.
    Mr. Scalise. Thank you, Mr. Chairman. Ms. Subra, when you 
were talking about the testing that EPA's doing, it's over land 
and you said BP's doing the testing over water right now for 
air quality?
    Ms. Subra. That--that is how it is now. EPA's doing the 
land, and BP is supposed to be doing it over the water and in 
the work area where the workers are.
    Mr. Scalise. But we are not getting access to--to those air 
quality reports over water?
    Ms. Subra. We have asked for it over the last week and a 
half.
    When we found out that EPA was receiving the data from BP 
and not putting it up on their Web site, then we asked for it 
at that time.
    Mr. Scalise. Why--why isn't EPA putting that data on their 
Web site; have you not gotten an answer on that?
    Ms. Subra. I haven't gotten an answer.
    Mr. Scalise. Then we will get that answer for you because 
there is no reason if----
    Ms. Subra. It would be very helpful to have that data.
    Mr. Scalise [continuing]. EPA is monitoring the air quality 
and that's--that's what their job is, they're tasked with doing 
that, why they would send parts of that to BP, I don't know. 
But if they've got the access to the data, either they should 
be doing it or they should be getting the data and making it 
public, but it shouldn't be withheld from the public for sure, 
so we will--I know my office will work on that and--and if we 
get the committee to--to dig deeper there, too, to get some 
real--to get some real transparency from EPA on that air 
quality.
    I want to talk about the chain of command; and maybe, Mr. 
Duplessis, Mr. Linn, you-all can touch on this. One of the 
problems we have been having is getting--getting things done 
when--when our locals who are doing everything they--they know 
how to try to protect the marsh, to try to protect our way of 
life, it seems like we just keep running into road blocks and 
locals are told to go talk to BP and you can't get answers 
there sometimes.
    What have you-all found from the defensive efforts? I know 
we fought for weeks to try to get the sand barrier plan. It 
took us over three weeks to get an answer from the federal 
government on putting sand barriers in front of the marsh to 
try to at least protect the marsh.
    What are you-all seeing when it comes to protecting 
beaches, protecting marsh? Are you directed to go talk to BP to 
get approval? Who's--Who's telling you to go where?
    Mr. Linn first, then Mr. Duplessis.
    Mr. Linn. Basically what would have normally been a Corps 
of Engineer type project on our island in terms of beach re-
nourishment and things like that was all put aside.
    Between BP and--and the federal government, I believe--I 
know the national guard was highly involved, they came in and 
within three weeks time we had a protective sand barrier along 
our--our main road, which is where the water and sewer 
infrastructure runs in order to try to protect.
    Because of the hurricanes, our island has lost a lot of 
sand on the far west end where all the tourism really is.
    Any high tide with a--with a southerly wind can actually 
cause an over wash on that west end, which brings stuff right 
into the sewer system, so that was the reason for that 
protective berm. The----
    Mr. Scalise. And you-all got approved from BP or who----
    Mr. Linn. It--it was actually a BP start. It was clean 
harbors, Doctor--oh, he--he's helping us actually with the town 
of Dauphin Island in doing a study of the beach.
    Mr. Scalise. I'm glad you-all did because----
    Mr. Linn. Yes.
    Mr. Scalise [continuing]. Like I said, it took us over 
three weeks and we still went round and round.
    Mr. Linn. Yes.
    Mr. Scalise. I don't even think they started dredging in 
the sand yet in our marsh.
    Mr. Linn. Yes. We--we had action quickly on Dauphin Island.
    We truly did in terms of actual emergency protection 
devices.
    Mr. Scalise. OK. Mr. Duplessis.
    Mr. Duplessis. Well, I'm from Plaquemines Parish, as you 
know, and Billy Nungesser, bless his heart, they're going to--
BP is going to cause his demise.
    Mr. Scalise. I've been in talks with Billy. I tell him to 
take care of his health, because he's working hard I know.
    Mr. Duplessis. Right. With the--the berm or the rebuilding 
of the Chandeleur and Breton islands, we have been trying to 
get this done for years, as you know, and trying to get--I 
really don't know what the problem was with--we had the Corps 
of Engineers. We needed approval from the Corps of Engineers 
and they took, what, three weeks, four weeks and finally they 
got approval of part of it and then----
    Mr. Scalise. They still have only approved one-fourth of 
the----
    Mr. Duplessis. One-fourth of it.
    Mr. Scalise [continuing]. Plan and again I don't think 
they've even started dredging sand----
    Mr. Duplessis. Right. It's----
    Mr. Scalise [continuing]. And we are six weeks into this 
disaster now.
    Mr. Duplessis. I don't know if the problem is--is not 
knowing the effects, the long-term effects, as they say from 
studies and stuff; but as far as my side of it, they have been 
studying this for years. They have been studying it for years, 
so why should we have to start new studies.
    Mr. Scalise. And I think it's most irritating to us----
    Mr. Duplessis. We know that it'll help.
    Mr. Scalise [continuing]. Is when they say we need 
environmental studies and in the meantime our environment's 
being destroyed.
    Mr. Duplessis. Right, right.
    Mr. Scalise. But I know I'm out of time, but we have got to 
set a better chain of command; because I know the president 
keeps saying he's in charge and then every time something's not 
happening nobody wants to be accountable for it. When you can't 
get booms, when you can't get berm, when you can't get--and 
there's still things like this happening every day.
    And even though the president says he's in charge, we are 
not getting the resources we need and nobody wants to say they 
are in charge when things go wrong. Well, that's when you need 
leadership. So we need to protect your oyster beds, we need to 
protect those seafood beds, we need to protect Dauphin Island.
    Mr. Duplessis. Well, I understand that. At the same time--
--
    Mr. Scalise. I don't think enough's being done.
    Mr. Duplessis. Yes. And at the same time I can also 
understand our president's position. If--if--just like with 
the--with the drilling, if everyone says, well, you know, don't 
stop the drilling, don't stop the drilling. But if--if he says, 
go ahead and drill and next week we get another oil spill, the 
same people that are saying, you know, go ahead and drill, they 
going to say, hey, you dummy. You shouldn't have done that. We 
just had an accident.
    Mr. Scalise. Right. We just want to make sure they follow 
the safety guidelines that are already there and clearly they 
weren't doing that.
    Mr. Duplessis. Right.
    Mr. Stupak. Mr. Scalise, I'm in charge, so I'll take 
control here.
    Mr. Scalise. I appreciate that. Thank you.
    Mr. Stupak. I'm going to ask the members to respect the 
time--the five minute time so we can get through another round 
of questions. Everyone's expressed interest of doing another 
round, so let's get another round in if we can because we 
promised we'd finish up here by 2:00 o'clock.
    Let me ask this sort of quick throwaway questions, do any 
of you believe that estimate of oil coming from that blown well 
as BP says?
    Mr. Linn. No.
    Mr. Duplessis. No.
    Mr. Stupak. You are all shaking your heads no. OK. Dr. 
Solangi, let me ask you this. In your statement, your last 
line, you said, we believe that prudent development and use of 
our resources requires adequate safeguards as well as a safety 
net to protect the environment and those making a living from 
it.
    What are the safety nets you're--you're looking at?
    We were down, as I said, way down south yesterday in the 
marshes outside Venice and you could see oil rigs only six or 
seven miles from the places where--of concern, endangered 
species of birds, insects, animals live. We were all alarmed to 
see how close the rigs to places where people and animals live. 
We were surprised how many rigs were clear and visible to the 
coastal land.
    Dr. Cowan told the committee staff that platforms--and I 
don't think you have it for the witnesses, but we have this 
document here. There's like 3,500 oil and gas platforms in the 
Gulf very, very close to the shoreline along your 1200 miles of 
coast here. I, for one, believe in oil, drilling for gas and 
oil, but I just think there's some environmentally sensitive 
areas you really shouldn't do it.
    It took me a long time but I got the ban on oil and gas 
drilling in and under the great lakes, which my district 
comprises three of the five great lakes. I don't think we 
should be drilling for oil and gas there, so--And--and I was 
surprised it looked like there was--right in the marsh there 
was a well being drilled as we were on the fan boats there 
yesterday; so what are the safeguards we should have here?
    Mr. Solangi. I think this is an engineering issue, as you 
have said, that for decades, you know, it's a fact of life. Oil 
and gas is crucial to this country and its survival and it can 
be done properly. There are many, many safeguards, engineering 
issues, that can be done. This is an anomaly. We have had 
really a lot of questions why it happens. It is something that 
both nature--I mean a lot of people go to the rigs to do 
fishing. Rigs can become a part of the ecology of the system 
where you can see increased productivity, so it's not all 
negative, but if it's done properly, if it is done safely with 
all the proper safeguards. And I think it is your job to make 
sure that accidents like this don't occur. Small issues can be 
reconciled. I mean that's human.
    Mr. Stupak. It seems like the engineering to drill deeper 
and drill in more sensitive areas has been developed, but the 
technology, the engineering, if you will, the science behind 
the clean up is the same science that we did back in the 19--
early 1900's: Burn it off, try to mop it up.
    There doesn't seem to be, at least from where I sit--and 
I'm no expert in this area--there doesn't seem to be the 
emphasis on what if something goes wrong, how do they contain 
it? How do we shut it down? It seems like we have developed one 
side of the equation but not the other.
    Mr. Solangi. You are absolutely right. I think that is the 
side of the equation people are having difficulty with as to 
what do we do now? How do we respond to emergencies like that? 
And we are lacking in that aspect considerably.
    Mr. Stupak. OK. Ms. Subra, what's the long-term effects of 
inhalation of oil? You also mentioned hauling in these booms 
with their hands, oil on their hands. What's the long-term 
effect?
    Ms. Subra. Well, first of all, there are two major 
components of the crude oil: There's volatile organics, which 
it's contended that they off gas really quickly, but in a lot 
of cases it's not off gassing real quickly; but one of the 
components is benzene, a known human cancer causing agent.
    The other mentioned component of the crude is polynuclear 
aromatic hydrocarbons, and a large number of those components 
are known and suspected to cause cancer.
    So when they start inhaling it, they take it into their 
body and they are out there working and they will be out there 
working for an extended period of time, and if they are not 
protected, they are having acute impacts, which is what I 
described, and then they can have the long-term impacts.
    They can have cancer, but they can also have heart and lung 
problems that can increase with the increased efficiencies of 
breathing in it each time into the body, going home at night, 
coming back out, getting exposed again.
    So it's the chronic, the heart, the lung, and the potential 
of cancer that are for the long-term. And what we don't want is 
we don't want to create a population that became contaminated 
because they weren't provided with proper protection.
    Mr. Stupak. You mentioned enforcement, you get a court 
decree and then they don't enforce it. Who's responsible for 
enforcement, OSHA, state and federal OSHA?
    Ms. Subra. OSHA primarily because it is a workplace issue. 
The agencies at the federal level have the oversight. And the 
one that are at the command center could do something to 
require that BP actually provide the protective gear, which the 
court has said, which the agencies have said, and which OSHA 
has said; so it's a big enforcement issue as well.
    Mr. Stupak. Supplement your testimony with a request for 
that air monitor information you want and also the dispersant 
and I'm sure our committee can get some answers.
    Mr. Burgess for questions.
    Mr. Burgess. Thank you, Mr. Chairman. And, Ms. Subra, let 
me stay with you for a second. You said the EPA is monitoring 
on land and BP is monitoring on the water; is that correct, the 
air quality.
    Ms. Subra. That--that is how it's divvied up at this point, 
yes.
    Mr. Burgess. And is the--is the land monitoring data being 
made available real time on the--on the EPA's Web site.
    Ms. Subra. Could you ask that again, please?
    Mr. Burgess. Well, do you have access to the--to the levels 
that are--that are being recorded on land.
    Ms. Subra. That EPA is monitoring for, they put them on 
their Web site usually with one or two days delay, but they are 
up there on a regular basis.
    Mr. Burgess. Now, you said the concern about the off 
gassing and the crude oil aerosolization, the EPA had the 
official statement wrote down that there were only short-lived 
effects; is that correct?
    Ms. Subra. Correct.
    Mr. Burgess. And yet, if the levels of these hydrocarbons 
and benzene are higher, there could be long-term effects; is 
that correct?
    Ms. Subra. Right. The concentrations in the aerosol are 
being detected in the monitors that they have on land and the 
monitors on land are some distance from the marsh. The 
workers--the workers are exposed to a lot higher 
concentrations.
    Mr. Burgess. But my understanding from watching some of the 
news shows, that there are people who are not involved in any 
of the work at all but just who simply live in the area who 
have complained of some of the respiratory complaints, some of 
the dizziness and nausea. Is that happening.
    Ms. Subra. Could you ask that again please? I'm sorry.
    Mr. Burgess. People who are not involved in the cleanup, 
people who just live in the area----
    Ms. Subra. Right.
    Mr. Burgess [continuing]. Are they being effected.
    Ms. Subra. Right. They are having the effects from the 
aerosol that's in the air that's being carried onshore when 
there's a south or southeast wind.
    Mr. Burgess. So whose responsibility is the protection of 
those individuals? Obviously, OSHA would not be the--the 
federal agency.
    Ms. Subra. The federal health agencies.
    Mr. Burgess. OK. And are they--are they fulfilling their--
their obligation under the--under the law.
    Ms. Subra. They--they are starting to send some of their 
mobile clinics.
    Mr. Burgess. That's a yes or no question, not ``they're 
starting to''. Are they fulfilling their obligation.
    Ms. Subra. Not adequately.
    Mr. Burgess. What are--what are some of the levels of 
benzene that are being recorded on land by OSHA's monitors.
    Ms. Subra. I'm sorry. I couldn't quite understand.
    Mr. Burgess. The OSHA monitors that are now up and 
deployed, what are the levels of benzene that they are--they 
are recording.
    Ms. Subra. The amounts of benzene that they are picking up 
on the land----
    Mr. Burgess. On the land.
    Ms. Subra [continuing]. In the six monitoring locations do 
not exceed the ambient standard in Louisiana, but they are very 
close to the ambient standard. And the ambient standards are 
established to determine where in the general area it exceeds 
that standard and what are the sources and work on reducing the 
sources.
    Mr. Burgess. So is that the 1.4 parts per billion standard.
    Ms. Subra. Yes.
    Mr. Burgess. And to date with--with the people complaining 
of the odor from the--from the spill, those--those levels are 
not being exceeded.
    Ms. Subra. The benzene level, but the cumulative impacts of 
all the chemicals, all the volatiles that are being detected, 
the cumulative impacts are sufficient to cause the health 
impacts. And we have asked over and over again for an analysis 
of the semi-volatiles and they have not started that yet.
    Mr. Burgess. The EPA has not.
    Ms. Subra. EPA, correct.
    Mr. Burgess. On the--would it be surprising to learn that 
the--the application that was submitted by BP to the Minerals 
Management Service suggested that they did not have to provide 
environmental data in a worst case scenario.
    I know Mr. Dingell and myself brought that--this up at our 
very, very first hearing, and the application that BP submitted 
was woefully inadequate, so shame on them for not--not filling 
that application out but shame on Minerals Management Service 
for not taking that application back to them and saying, this 
is not acceptable. You will have to show us how you are going 
to mitigate the environmental effects. If you're drilling a 
well that is capable of producing a hundred thousand barrels of 
oil today, if this thing gets away from us, you are going to 
have to show us how you are going to mitigate those effects. 
But that, unfortunately, was lacking in the application 
submitted to MMS.
    Mr. Linn, let me just ask you a question. I am so concerned 
about your--and I appreciate that the SBA has been good to work 
with, but having to run a business myself, I understand when 
you start borrowing for operational expenses, you can only do 
that for so long. Are you the--the sole signatory on those SBA 
loans.
    Mr. Linn. My wife and I. It's a corporation.
    Mr. Burgess. Is there--is there a line there where BP can 
sign on.
    Mr. Linn. That's what I'm sure hoping you can find, but 
they have not offered it yet.
    Mr. Burgess. One thing, if they go away as a consequence of 
this, then you are going to be left holding those loans; is 
that correct?
    Mr. Linn. Totally, yes.
    Mr. Burgess. You know, that just seems like an 
unsatisfactory arrangement, one we should try to remedy.
    Mr. Linn. It's--it's like being on the second floor of a 
building on fire though. You have a choice of burning up or 
jumping and taking a 50 percent chance you will live on the 
fall. That's why we are getting loans. We--we know BP's not 
going to hold up at this point in time within a timely fashion.
    Mr. Burgess. Thank you. Thank you, Mr. Chairman.
    Mr. Stupak. Thank you, Dr. Burgess. Mr. Braley for 
questions, please.
    Mr. Braley. Dr. Solangi and Ms. Subra, I want to follow up 
the point that Dr. Burgess was just raising because it seems 
like this process was upside down and backwards from the 
beginning in terms of the leasing approval process and the 
environmental analysis. Because we know that the way the courts 
have traditionally looked at this type of environmental impact 
analysis, they are supposed to have a more exacting review of 
that environmental impact as drilling becomes eminent, and yet 
the exact opposite happened here; because we know that the 
multi-sale economic impact statement done in the preliminary 
stages of the review did examine the possibility of a larger 
offshore spill for these particular leases and, even though it 
never just analyzed the impact of those spills, it reached the 
conclusion that a spill larger than 10,000 barrels had greater 
than a 99 percent chance of happening during the 40-year lease 
period under consideration. And yet despite that information in 
the permitting process, a conclusion was reached by MMS that an 
offshore spill larger than 1,000 barrels would not have a 
significant environmental impact. What do you think of that 
conclusion, Dr. Solangi?
    Mr. Solangi. I think it was inadequate. Those are all 
hypothetical considerations and really, you know, it wasn't 
about those practices.
    Mr. Braley. Ms. Subra.
    Ms. Subra. I think it's almost impossible to have a spill 
the size that they said and not have any environmental impact, 
and yet this obviously got accepted and the process moved 
forward.
    Mr. Braley. One of the other things we know is that BP had 
discussed a worst case scenario response in its initial 
exploration plan for this lease, which is referred to as 
Mississippi Canyon Block 252, indicating that it considered a 
potential large scale spill. And their exploration plan said 
that the worst case scenario would be a blowout at the 
exploratory stage leading to a spill of a 162,000 gallons or 
3,800 barrels per day of crude oil; and their exploration plan 
indicated that their regional oil spill response plan for a 
worst case scenario had been approved by MMS, and yet we know 
that during the hearing we had previously, the CEO of BP 
testified that they were capable of handling a release of 
250,000 barrels per day without having a disastrous impact on 
the environment.
    And yet their initial representations is this spill we've 
been talking about was releasing somewhere between a thousand 
and 5,000 barrels per day. So what do you think of BP's 
representations to MMS during the permitting process in terms 
of their capability of handling a catastrophe of this 
magnitude?
    Mr. Solangi. I think at this time they have not 
demonstrated that they had the capability of handling a 
catastrophic oil spill which was a couple hundred thousand 
barrels. I mean, right now, I believe it's more than 5,000 
barrels; and ultimately, you know, we are going to find out 
that this wasn't very well thought out.
    Mr. Braley. Ms. Subra.
    Ms. Subra. It gets back to enforcement or oversight. And if 
they put this forward as they were able to handle it, they 
should have had to have a mechanism to demonstrate they could. 
And obviously, they didn't have the capability because this 
spill hasn't been contained and has caused environmental 
damage.
    So how much, as you review these applications, do you just 
accept as face value and how much do you require them to 
provide sufficient information of how exactly they would handle 
such a situation.
    Mr. Braley. Well, one of the things that's hard for me to 
understand, given the magnitude of this spill and the region 
it's affecting, is how a company like BP can get an exemption 
at the later stages of the leasing process that prevents them 
from having to do an environmental impact study, considering 
all of these different scenarios based upon where that well is 
located. Because if you look at the regulations and then notice 
that MMS issued on May 1st of 2008, if you are in Florida, and 
Florida can be an affected state, you have to do the more 
detailed analysis.
    And, Dr. Burgess, I'm also shocked to see that if you are 
in Texas, and Texas is a potentially affected state, then 
during the initial exploration plan, you have to go into more 
detailed analysis of the impact of such a spill, and yet we 
know that in the central Gulf region where this well is located 
they are not subject to those same requirements under MMS's own 
regulations.
    So I think we need to have MMS look closely at this issue 
because I don't care where you are in the Gulf. I don't care 
how big the economic impact from the oil and gas industry, we 
have to protect the livelihoods of the people like we have here 
today. And I yield back.
    Mr. Stupak. Thank you, Mr. Braley. Mr. Markey, questions, 
please.
    Mr. Markey. Thank you, Mr. Chairman. Ms. Subra, you 
mentioned that BP wasn't publishing BP's air quality data, 
which my staff asked EPA why not. EPA told us that it can only 
post its own quality control data, but on May 20th EPA and the 
Department of Home Land Security ordered BP to publish that 
data on its own and they have complied, and it is on BP's Web 
site if you want access to it. Have you had an opportunity to 
look at that?
    Ms. Subra. No, I haven't and I will. Thank you.
    Mr. Markey. Yes, ma'am. So I'm told that's the case that--
--
    Ms. Subra. But it would also be great if EPA would also 
publish----
    Mr. Markey. I agree. I--I think that the more information 
we can put out there, the better. But the good news is that 
it's on BP's Web site. After today's hearing, we will make sure 
that it is vital that everyone has access to it, but it is out 
there.
    Dr. Solangi, what do you think could be the long-term 
consequences to the health of marine life as a result of 
exposure to these dispersants?
    Mr. Solangi. I think it can be devastating. The area that 
they are looking at is very unique. It's unlike Valdez or the 
Prince William Sound. These are bays, bayous, estuaries, muddy 
bottom, very--the flushing, you know, the tidal fluctuation is 
very minimum, one to two feet per day versus 10 to 12 in other 
areas.
    I'm sure you--you are going to hear about mud masks, you 
know, when you go to a beauty parlor or somebody--mud actually 
retains oil, and most of your mud from here on to the mouth of 
the river has mud and clay, and it's going to retain quite a 
bit of these toxicants in that mud.
    Mr. Markey. What is--what is your concern, Dr. Solangi, 
that this combination of oil and chemicals that is creating a 
toxic stew out in the Gulf of Mexico could have on the food 
chain that human beings are exposed to? Are you concerned about 
the health impacts on human beings?
    Mr. Solangi. Absolutely, sir. I think this will go through 
the food chain, smaller organisms eating larger organisms, and 
through bioaccumulation, through biomagnification, you will see 
some of these contaminates go through the system. However, 
nature has its way of trying to get rid of them, and as I've 
pointed out in my testimony, that the amount of exposure and 
the time of exposure will determine how nature will fix itself. 
Eventually it will take time to fix it. We have had, during the 
war in Iraq, 500,000 gallons was spilled in the Arabian Gulf 
and it has taken time to recover.
    But, again, there are serious consequences from the area, 
especially the wetlands and the bays and the bayous that are 
the area where critical habitat for young fish and shrimp and 
others to develop.
    Mr. Markey. So--so we could have health impacts that come 
from human beings eating seafood in the future----
    Mr. Solangi. Yes.
    Mr. Markey [continuing]. That have unfortunately been 
exposed to this toxic stew of chemicals and oil?
    Mr. Solangi. That's correct.
    Mr. Markey. And we have human beings right now who are 
being exposed to chemicals and oil that could have long-term 
negative impacts on the health of Americans.
    I just think that there should be no expense spared to 
ensure that we put in the preventative health care guarantees 
that we are not going to allow for this to affect the people 
down here in the Gulf especially, but ultimately all across the 
country. Because this food chain starts here, but it goes right 
up the Mississippi and right up the Atlantic coast as well. 
Many of the fish that spawn here wind up being caught by 
fishermen up in George's bank off of New England. Dr. Solangi.
    Mr. Solangi. Yes, sir. You could--you could take over my 
job.
    You have very eloquently summarized my testimony.
    Mr. Markey. Well, again, I'm only reflecting your 
testimony, what you say in your testimony.
    Mr. Solangi. Yes, sir. It's very appropriate and you 
eloquently summarized what I was wanting to say.
    Mr. Markey. It is--it is powerful what we are hearing here 
today. This is----
    Mr. Solangi. And one of the things we do is by monitoring 
the dolphins, being on top of the food chain, like we are on 
top of the food chain in the terrestrial environment, the 
smaller fish eat larger fish and eventually the dolphins become 
the good canary in the mind. And by monitoring them, we can 
monitor the environment. What ultimately happens to the 
dolphins will happen to us.
    Mr. Markey. You have--all of you have laid out a 
blistering, scalding indictment of what BP has left as a legacy 
for the Gulf for the generation to come. We--we very much 
empathize with all of your problems, and we are going to try to 
do our best to make sure that BP and the federal government are 
there for you as long as we have to.
    Thank you, Mr. Chairman.
    Mr. Stupak. Ms. DeGette, questions, please.
    Ms. DeGette. Thank you very much. Dr. Solangi, I want to 
follow up please on--on the questions about dolphins because 
you said that so far you have seen eight to nine dolphins that 
have--treated that have not had oil damage. I--I assume you 
expect to see some oil damage as it works its way up that food 
chain?
    Mr. Solangi. Absolutely. This time of the year, this is the 
birthing grounds for the dolphins. We have approximately 3 to 
5,000 dolphins that inhabit the area from Breton, Chandeleur, 
and Mississippi Sound. They come to shallow waters to give 
birth, so we have double jeopardy. We have a whole bunch of 
baby dolphins and baby turtles all out there, and these are 
very inquisitive animals. They go into these lakes. The first 
thing they do is they inhale, they have respiratory problems, 
then they have skin problems and they contaminate the fish.
    Ms. DeGette. How long would you expect to see before you 
start seeing those effects?
    Mr. Solangi. I would say in the next couple of weeks we 
will start seeing many of these mammals coming to shore.
    Ms. DeGette. We heard last night from the Fish and Wildlife 
Service from the state that there were about a hundred dolphins 
that they had seen, only one confirmed died from oil damage, 
but they are also expecting to see more, so we should expect to 
see these--these impacts occur. And--and do you have any 
projection about how--how large the impact will be on these 
dolphins?
    Mr. Solangi. I think it could be a very serious 
consequence. As I mentioned, we have about 3 to 5,000 estimated 
in this area; and with the large number of young babies having 
being born, it could be very serious.
    Ms. DeGette. Ms. Subra, I had a question based largely on 
the fact that I'm from Colorado where heat stress is not a big 
worker issue. And my question is: You talked about how people 
are being--workers are taking--being told to take off their 
respirators and not use them because of the--of the heat 
stress.
    Is there some kind of a--a way that people can't--that we 
can treat both of those issues at once, that they can both use 
the respirators so that they don't suffer, so that they don't 
inhale these contaminates, and at the same time that they can 
be relieved from this heat stress?
    Ms. Subra. OK. First of all, they are not giving them the 
respirator in the first place, but they are using the heat 
stress as a reason not to give it to them.
    Ms. DeGette. Not to give it to them.
    Ms. Subra. Yes. Right.
    Ms. DeGette. But is there a way they both have to use the 
respirator and also treat them for stress?
    Ms. Subra. Sure.
    Ms. DeGette. And how would that work?
    Ms. Subra. One of the ways you avoid the heat stress is you 
provide sufficient shade and enough cool liquids to keep you 
hydrated.
    Ms. DeGette. OK.
    Ms. Subra. And then if you are hydrated and you are not 
being impacted by the heat, then you can use the respirator and 
work----
    Ms. DeGette. Right.
    Ms. Subra [continuing]. And not have it stress your body 
that much more.
    Ms. DeGette. But that would seem like to me--seem like to 
me that the breathing was really related to the coolness and 
the shade part?
    Ms. Subra. Right. And it's difficult to breathe through a 
respirator, but you have to remember that the majority of the 
people, even though we have heard testimony differently, are 
fishers from this local area or that's what we had gotten an 
agreement on.
    Ms. DeGette. Right.
    Ms. Subra. And those fishers are used to working on the 
water----
    Ms. DeGette. In heat.
    Ms. Subra [continuing]. For long periods of time in the 
heat and the sun.
    So if they provide them with what they need and don't 
depend on the fishers to bring out sufficient food, drinks, and 
a mechanism of shade, then they can work with the respirators 
and not stress their bodies----
    Ms. DeGette. Right.
    Ms. Subra [continuing]. And protect their bodies.
    Ms. DeGette. I'd like to hear Mr. Duplessis' opinion on 
this because he's been fishing in these waters.
    Mr. Duplessis. I think BP's thing with the respirators is 
more of a public relations thing, if for the camera, see these 
people with respirators. They going to say, hey, this is 
dangerous. Even though they know it's dangerous, I think it's a 
PR thing more--more than anything else, that plus the good 
respirators are expensive. That could be part of the problem 
also.
    Ms. DeGette. So--but what--what Ms. Subra is saying is 
that, if people are inhaling these chemicals, that could be a 
very bad health damage. And what she's saying is, if you gave 
people the respirators, don't make them buy them themselves but 
BP pays for them, they put them on and they have sufficient 
shade and they have sufficient hydration, they could both have 
the respirator to protect their health but also not get the 
heat stress. Would you agree with that?
    Mr. Duplessis. Exactly. The people down here are used to 
the heat and--and the humidity. I think it would be less 
stressful on the body with the heat rather than the fumes.
    Ms. DeGette. Yes, right.
    Mr. Duplessis. And less harmful, no doubt less harmful.
    Ms. DeGette. Thank you, Mr. Chairman, and thank all of you 
for coming and sharing your wisdom with us. There's--there's no 
substitute for going out in the field and hearing exactly 
what's happening. We really, really appreciate it. We have 
learned a lot today.
    Mr. Stupak. Thank you, Ms. DeGette. Ms. Schakowsky for 
questions, please.
    Ms. Schakowsky. Yes. I want to echo my colleague's 
statement of gratitude. Coming here really does equip us, I 
think, with a different perspective when we go back on what 
really, not only is happening, but what needs to be done, so 
thank you very, very much.
    I would--used to spend a week every summer with my family 
at the Navarre Beach, which is right next to the national 
lakeshore near Pensacola on that--in that amazing white sand, 
sugar white sand beach; and I saw a piece on television last 
night where one of the local officials had called on BP because 
there was some--there were these oil globs that they wanted BP 
to get to work on and it took a long time to get any response. 
And at the end, they--hours later, they--in any case, the 
response was inadequate from BP. It sounded to me like they 
were going to get some local, either volunteers or government, 
so I have a couple of questions.
    One, what has been the experience in terms of the timing of 
the response for help from the--the requests for help from BP? 
And, secondly, what has been the state and local response and 
is there decent coordination going on.
    One of the things that we thought when we came down for the 
hearing on Katrina was that the bureaucratic stacks of various 
levels of government really postponed the kind of responses 
that should have happened. So first, Mr. Linn, if you would 
tell us your experience?
    Mr. Linn. Dauphin Island itself, which as I said, we are 
the little brother of the Alabama coast line, we actually had 
an adept amount of preparation and almost an overkill at the 
time. They were using us as a staging ground. It became pretty 
much the command center, shall we say, for clean harbors, 
O'Brien Interstate. All of the major cleanup contractors had 
been hired by BP.
    Also in Mobile was a--was a strong strategic point, so we--
we had a lot of people wandering around, hundreds of people 
wandering around on the beach in HAZMAT suits when there was 
absolutely nothing there, which also had its own issues.
    You may have seen the child in the swimming water--in the 
swimming suit playing on the beach with the HAZMAT people 
behind them walking around. That made national news and helped 
us a lot.
    Besides that, our initial preparation was we did have 
people on the ground when it came time. They are working in the 
range of 20 to 30 minutes, an hour we were told, again, because 
of the heat stress issues that are going on out there.
    Orange Beach and Gulf Shores seem to be much less prepared, 
and I don't know if that was from government response, local 
effort. I really don't know about what happened there. It is my 
understanding, though, that they were going after quick 
training to try to pull unemployed folks in the area to get 
them out there and start helping.
    I think part of the problem is they did not think it was 
going to get to them.
    Dauphin Island is always sort of on the west side of the 
bay. We sort of catch all the grief and all the stuff. Mobile 
Bay comes out and washes to the--to the west. I think everybody 
is surprised at the enormity of this thing and that it's now at 
Navarre, that's it's now at Pensacola, and that Apalachicola is 
right down the road.
    Ms. Schakowsky. So, again, one of the things you want 
people to know is that Dauphin Island has talk come on down for 
the summer; is that what you want people to say----
    Mr. Linn. Yes.
    Ms. Schakowsky [continuing]. To hear that, you know----
    Mr. Linn. We would have liked to have seen that, but now 
even that's a hard thing to explain. Even on our own Web site, 
the first thing on our home page is a 0 to 5 impact. We had to 
do it. I mean we're an upfront company. You tell people to come 
down, but when we have odors in the air, we have tar balls on 
the beach, changing environment every day, National Guard on 
one end of the island, three command centers on the island, 
it's--it's not--and sand--sand protection, sand barriers, which 
we are so glad they are there, but you got to climb over to see 
a beach let alone get to it. We are not a vacation heaven right 
now.
    Ms. Schakowsky. Got it. Any other comments about the role 
of local, state, and federal government and how that 
coordination is going, any other comments on that?
    Mr. Duplessis. Well, down in Plaquemines Parish, which is 
more or less the epicenter, in the beginning was mass chaos. We 
had people and news media and BP and everyone was crowding down 
to Venice, Louisiana. That's where most of the boats were 
leaving out, Venice. That was the closest land point from--from 
the--the actual rig site. And it was--it was pretty bad at 
first, but now it's--it's kind of calming down.
    But it seems in this area it's been a parish by parish 
operation. Each parish is doing things a little differently 
from the next parish. It's not like during the hurricane 
evacuations when all--everybody is--you know, it's been planned 
and we evacuate and things run smoothly with the contraflow and 
everything all the way up to Mississippi. Everybody is pulling 
together. But this thing here--and nobody--no one with plans. 
It was a surprise. We were ambushed, but now it's--it's--the 
local government's kind of getting it together.
    Ms. Schakowsky. Thank you.
    Mr. Stupak. Mrs. Christensen for five minutes.
    Mrs. Christensen. Thank you, Mr. Chairman.
    Dr. Solangi, you said that the dolphins can be the canary 
in the mine or in this case the sea, I guess, when you were 
talking about the food chain, the impact of the ingestion of 
oil toxins in the food chain. What is--what do we know about 
the impact on dolphins living ingesting oil toxins, at least, 
or other sea life that has ingested oil toxins? What has been 
the impact on the dolphins?
    Mr. Solangi. OK. We have been studying dolphins for the 
last 20 or 30 years. We are part of the stranding network. Any 
animal that dies, we get to bring him and do necropsies and 
pathologies. And I have in the room Dr. Chevis who's our 
veterinarian, does an outstanding job with us since 1993; and 
we have been able to develop some sort of a background profile 
and by studying the environment and the animals, we have really 
positioned to understand what is going to happen to this 
particular--in this environment in response to this particular 
episode. So we not only see what the ingestion is going to do, 
but what the other environmental factors. We swim in it. The 
animals swim in this. We eat the food, they eat the food, so it 
is--it is a good model.
    And that is one of the things that I think we are capable 
of doing, that we'll be using one particular model to give us a 
big broad understanding of what may be happening. When you see 
a large number of animals showing up on the beaches, we can be 
assured that we would be next.
    Mrs. Christensen. Thank you, Dr. Solangi. Mr. Linn and Mr. 
Duplessis, I'm concerned about workers that--I'm assuming you 
have employees. Have you had to layoff employees during this 
period? And if not you, what about other people in your 
industries and what is happening with those workers that might 
have been laid off? Are they being employed by BP or are they 
just still looking for work.
    Mr. Linn. From a--of course, the individual, the oysterman, 
the fisherman, that group, a lot of them are under contract or 
have at least been able get some sort of income started up. The 
retail businesses, the real estate businesses, property 
management companies, most are taking--I know of some layoffs 
that have already taken place. In our particular case, 
actually, we added a person to handle the overflow in the 
deterioration that was going on.
    Back to the small business loan, I hate to bring it up, but 
that's another reason is our primary interest is to keep the 
employees that we have. It's been a family effort, not as 
family goes, but they have worked for us for years, so we are 
their only hope on that island. There's no other jobs. You 
can't go to work for Wal-Mart.
    We have 20 to 25 contractors that work the base, that fix 
houses, that do all of these things. Without having companies 
such as ours, and this is across the board, I don't know where 
people are going to turn. They are an independent bunch. That's 
why they are there. So I really don't know what they are going 
to do.
    I hope--I hope that somehow with your help in this whole 
situation, we will be able to turn the tide and survive, and I 
think they all feel the same way.
    Mr. Duplessis. Our company is a small family company also. 
And most of the workers that we employ are deckhands that work 
seasonal. And when I don't work, they don't work, so they are 
not employed either.
    Mrs. Christensen. Thank you. I think I'll yield back my 
time.
    Just let me, again, join my colleagues in thanking all four 
of you and the previous panel for coming out and testifying and 
sharing this information with us. Thanks.
    Mr. Stupak. Before I recognize the gentleman from 
Louisiana, I would point out that when you gave me that lighted 
pendant for St. Bernard's Parish, I didn't know I'd be yielding 
five minutes to you sitting here; so I would yield to Mr. 
Melancon for five minutes.
    Mr. Melancon. Thank you, Mr. Braley. Let me--let me try and 
put some things in perspective for the committee.
    Stafford Act applied to a natural disaster--disaster 
declaration by the president. Basically, when that disaster's 
declaration is put forth on a natural disaster, all agencies, 
everything the government has can be applied.
    Under NORA, the event of national impact, it is a totally 
different response because we have not the vessels, not the 
equipment, not the technology. The only thing we can basically 
put is the boots on the ground and try and help get the boom 
that's coming down and other things to make the Coast Guard, of 
course, be more forceful rather than just being--get along, go 
along, which it appeared the perception was early on.
    Wilma, it took me two weeks to get a mobile health clinic 
to Venice. There is--West Jeff has put a facility on Grand 
Isle, but BP would rather put people that get ill or whatever 
in an emergency unit and send them up to Lady of the Sea, which 
is about 30, 40 miles away. The closest hospital to Venice is 
about 80 miles away, which is Ochsner across the interstate 
from Belle Chasse. So the frustrations of the expectation of 
what the government should or shouldn't or could or couldn't 
have done is kind of out there and it's blurred, and so there's 
frustrations all around.
    One last point: After Katrina in an effort--because 
Stafford Act was not adequate and we are finding out that the 
National Oil Spill Response is not adequate and we need to 
reform and amend and take care--Because this isn't a spill, 
this is a leak. And Katrina, Stafford Act didn't take care of 
all our problems and we found reforms we had to do there 
because it lacked adequacy.
    So with those two things, regardless, I am finding in our 
first hearing that an agency of the federal government waived 
the law so that a permit could be issued to drill, and I 
couldn't get a federal agency to waive a rule after Katrina to 
help the people in this region. Waiving a law, I don't think--I 
think that's basically breaking a law, so we need to look as 
deep as--as possible to find out what's going on with that.
    What little time I have left, let me offer to--and since 
you are one of my constituents, Mr. Duplessis--the four of you, 
if you've got anything that you have not been asked or you wish 
that you would like to express, please?
    Mr. Duplessis, first, if you have got anything or if 
anybody else has anything they would like to just add?
    Mr. Duplessis. Just one little comment. The gentleman here 
was talking about the dolphins. My wife is heartbroken because 
one of her favorite things to do was when we were shrimping to 
hand feed the dolphins. When we would shut down at the end of 
the day or go on anchor, she would hand feed the dolphins. I 
couldn't get her to work for two hours. That's all. And it's 
going to be sad if we lose these dolphins.
    Mr. Melancon. Mr. Linn?
    Mr. Linn. I think we have really--I think you have asked 
some very astute questions, and I hope that we have kind of 
given you a feeling for one of the frustrations that really the 
dire straights we--we truly are in at this point in time.
    Mr. Melancon. Dr. Solangi.
    Mr. Solangi. I think the reason why people are here is the 
way of life. If that changes, it could be a very significant 
impact, not only on this region, but for the entire country. 
There's a huge impact. It's just not a Mississippi, Louisiana, 
Alabama issue. And I think nobody should look at it prudently 
that we should go into emotional decisions, but let's make some 
good decisions, rationale decisions so that everything is 
balanced. I think that's what gets lost in, you know, panic 
situations where you lose rationale. And so there's a lot of 
things that we need to think about and fix and make sure that 
this never happens again.
    Ms. Subra. In that same vein, I think we have to be very 
aware as we go through it because each day there's a new issue, 
a new rule that comes forward and accumulate that information 
as well as what happens when the flow stops and how long it 
takes. After that, learn from those and put together some 
mechanism.
    I wanted to respond to her issue of them not responding 
quickly. When the slick hit St. Mary, Iberia, and Vermillion, 
BP said that they could not respond and start doing any cleanup 
until they had samples taken and analyzed to be sure it was 
proven to be their crude oil. And if that's the same thing 
that's happening as the slick is moving in Mississippi and 
Alabama and Florida, that's something--it's clearly coming from 
the rig site and moving across the Gulf. There's no question 
whose it is. And that you lose very valuable time in addressing 
the problem immediately versus waiting three, five or seven 
days for the lab to get the results back.
    Mr. Stupak. Thank you, Mr. Melancon.
    During Katrina, Mr. Melancon kept our committees deep in 
the fire, as I mentioned when we came down here. But we're 
going to have more of these hearings for the regulators to 
waive the rule. We will have those hearings probably later this 
month; and if we are not doing the formal hearings as Charlie 
insisted we did on Katrina, we would invite the parties up and 
we would put them in the room and tell them the results of 
these differences and cut through the red tape.
    So I just want you to know your delegation, especially, Mr. 
Melancon--because we saw him on Katrina--is always there 
representing and fighting for your interest.
    With that, Mr. Scalise, questions, please. Five minutes.
    Mr. Scalise. Thank you, again, Mr. Chairman.
    I know one of the many things that we are dealing with and 
fighting with is trying to maintain the integrity of--of what 
Louisiana seafood means, and obviously for so long we had built 
that up. It's a--it's a prized commodity. It's--Our chefs are 
world famous in many ways because of the things that they have 
done and taught the world how to do with Louisiana seafood. I 
don't think there's anything better than the taste of a fresh 
Louisiana oyster.
    With that, Mr. Duplessis, there's a lot of people that have 
misunderstandings. You know, there is tremendous testing done. 
And anybody who can buy Louisiana seafood today, they are 
getting good quality seafood. The problem is how limited is 
that commodity and how much is available, how much will be 
available in the future.
    Can you tell me, first, how many seafood beds are--are 
still open today because they're in areas where there's no oil 
versus how many are closed because of the threat of the oil 
right now?
    Mr. Duplessis. Today, I can't tell you. Yesterday, we had--
I think out of 14 areas, there was like six areas open for the 
oysters. I can't be certain of that.
    But the shrimping, there's a small area left on the--on the 
West Bank that's still open and the East Bank is--I'd say 80 
percent of the East Bank is open presently, but they are 
talking about starting to close it.
    Mr. Scalise. You are talking about the East Bank of the 
Mississippi River----
    Mr. Duplessis. Right, right. I'm sorry.
    Mr. Scalise [continuing]. For my colleagues that don't 
know.
    Mr. Duplessis. The East Bank of the Mississippi River. 
That's from the Mississippi state line to Mississippi--I mean 
to the Mississippi River. I'm sorry.
    But what's happening with the shrimping, because all the 
other areas are closed, it's caused a concentration of boats in 
one area and the shrimp can't handle that being pounded round 
the clock so hard. And what's happening is the shrimp are 
leaving. When normally they would stay, they are leaving, so 
it's a problem. It's--we don't have the area to work. We have a 
lot more people that are working the small areas that are left.
    And the oysters, right now the oyster industry is faced 
with a lot of regulations that just started this year with us 
with the refrigeration requirements and all this other stuff, 
and this is also a problem for the oyster fisheries because the 
oystermen have to move to different areas in order to work and 
it puts them further away from home base and it's creating a 
problem with--with the guys that have refrigeration and don't 
have refrigeration.
    Mr. Scalise. Yes. And I know, you know, a lot's still being 
done to try to--to mitigate the disaster. Early off everybody 
was talking about what they are going to do after the oil hit, 
and so many of our people were saying hold on a second, we want 
to be proactive. We want to stop the oil before it hits the 
marsh because, once it gets into the marsh, it's going to be a 
whole different challenge, a much tougher challenge to clean it 
out than if you just keep it out in the first place.
    And that's why we, of course, the top priority is still to 
get this--this well plugged but also to--to put a barrier in 
front of the marsh so that the oyster stays away from the marsh 
and the seafood beds and then hopefully stops any of the real 
long-term damage from being done to areas that haven't already 
experienced it, so that's something that we have to continue to 
push.
    One of the things I wanted to ask about. We hear all of 
these ideas and there's--I'm sure Charlie and I, at least, and 
the others on the committee, we get more ideas from people; and 
some, you know, maybe somebody didn't get enough sleep and some 
sound like they are brilliant ideas and you wonder why they are 
not getting tried. And you see the hay that's put in the water 
and it absorbs the oil, you've heard of the super tankers in 
Saudi Arabi, you've got--Kevin Costner came here with a machine 
that--that transfers--displaces the oil from the water.
    You don't see any of these being tried. There's more than 
enough good ideas that they should all be being tried 
throughout the Gulf right now; and if 10 of them work and 20 of 
them don't, you--you do more of the 10 that work and you keep 
doing more. But it just frustrates all of us to see that 
nothing is being tried from all of these brilliant ideas that 
you've heard. Have you--have you seen any of these put into 
action from all the things that you have seen and heard?
    Mr. Duplessis. No, I have not. And I don't know why BP--it 
would--it would seem that it would be in BP's best interest to 
try some of these ideas because it would help them to get this 
thing cleaned up. And I really don't know.
    We were talking about Kevin Costner. The last I heard about 
that is he was going to come in this area and demonstrate it, 
and I haven't heard anything from them.
    Mr. Scalise. And I saw the demonstration. It looked like it 
worked. We have got to try some of these things. That's why we 
need a real chain of command instead of everybody's in charge 
and nobody's in charge and nothing's getting done.
    Thank you. I yield back.
    Mr. Stupak. Thanks, Steve. Thanks for your help coming down 
too. Well, that concludes all questions. I want to thank our 
witnesses for coming today and thank you for your testimony.
    I want to thank St. Bernard Parish for being a gracious 
host. Their staff has been great to work with in lending us 
this building today.
    And also, the area of Chalmette, we appreciate the--the 
opportunity to be here with you. Our committee is continuing a 
thoughtful investigation of this incident. We are looking at 
all the major factors and all the major entities that play a 
role or should have prevented this disaster from happening. 
This subcommittee will continue to investigate and hold 
hearings until we get the answers that we are looking for, and 
at times we will order members of those responsible parties 
into Washington. We will try to get them to work out some of 
these problems that are confronting the local residents that's 
why it's so important for us to be down here to learn 
firsthand, so we thank you for being here.
    We plan on three more hearings yet this month just in this 
incident alone, so we just don't do one hearing and forget 
about it and leave. We are going to stay with you through this 
whole process.
    We would ask some of the witnesses to supplement your 
testimony. We would like you to do that, if you could, within 
ten days. And members will also have ten days to submit 
questions that we can address to the appropriate witnesses. 
Again, thank you all for being here. That concludes our 
hearing. The meeting of the subcommittee is adjourned.
    [Whereupon, the subcommittee was adjourned.]

                                  <all>

</pre></body></html>
